<html>
<title> - CONGRESSIONAL OVERSIGHT OF INTELLIGENCE ACTIVITIES</title>
<body><pre>[Senate Hearing 110-794]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-794
 
           CONGRESSIONAL OVERSIGHT OF INTELLIGENCE ACTIVITIES

=======================================================================



                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 13, 2007

                               __________

      Printed for the use of the Select Committee on Intelligence


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                   U.S. GOVERNMENT PRINTING OFFICE
48-096 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001



                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]
            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
               CHRISTOPHER BOND, Missouri, Vice Chairman
DIANNE FEINSTEIN, California         JOHN WARNER, Virginia
RON WYDEN, Oregon                    CHUCK HAGEL, Nebraska
EVAN BAYH, Indiana                   SAXBY CHAMBLISS, Georgia
BARBARA A. MIKULSKI, Maryland        ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 RICHARD BURR, North Carolina
SHELDON WHITEHOUSE, Rhode Island
                     HARRY REID, Nevada, Ex Officio
                 MITCH McCONNELL, Kentucky, Ex Officio
                    CARL LEVIN, Michigan, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                              ----------                              
                   Andrew W. Johnson, Staff Director
                Louis B. Tucker, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk


                                CONTENTS

                              ----------                              

                           NOVEMBER 13, 2007

                           OPENING STATEMENTS

Rockefeller, Hon. John D., IV, Chairman, a U.S. Senator from 
  Virginia.......................................................     1
Bond, Hon. Christopher S., Vice Chairman, a U.S. Senator from 
  Missouri.......................................................     6

                               WITNESSES

Hamilton, Hon. Lee H., former Vice Chairman of the 9/11 
  Commission and former Member, U.S. House of Representatives....    11
    prepared statement...........................................    15
Roemer, Hon. Timothy, former Vice Chairman of the 9/11 Commission 
  and former Member, U.S. House of Representatives...............    17
    prepared statement...........................................    20
Zegart, Amy B., Associate Professor, Department of Public Policy, 
  School of Public Affairs, University of California, Los Angeles    41
    prepared statement...........................................    45
Saturno, James V., Specialist, Congress and the Legislative 
  Process, Congressional Research Service, Library of Congress...    48
    prepared statement...........................................    51

                       SUBMISSION FOR THE RECORD

Families of September 11, prepared statement.....................    10


           CONGRESSIONAL OVERSIGHT OF INTELLIGENCE ACTIVITIES

                              ----------                              


                       TUESDAY, NOVEMBER 13, 2007

                             ----------                               


                               U.S. Senate,
                  Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:37 p.m., in 
room SH-216, Hart Senate Office Building, the Honorable Jay 
Rockefeller, Chairman of the Committee, presiding.
    Committee Members Present: Senators Rockefeller, Feinstein, 
Wyden, Feingold, Whitehouse, Bond, Snowe and Burr.

 OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, CHAIRMAN, A 
                U.S. SENATOR FROM WEST VIRGINIA

    Chairman Rockefeller. The meeting will come to order. The 
Senate Intelligence Committee meets in open session, which is 
actually required under the rules if we have nothing which is 
classified, so that's why we're here. But we have a very 
serious purpose, which is to examine how to optimize what you 
all talked about in the 9/11 Commission, and that is 
congressional oversight of the United States Government's 
intelligence activities.
    To help in this undertaking we're going to hear from panels 
of expert witnesses. Our first panel will be two members of the 
9/11 Commission--a rather distinguished gentleman by the name 
of Congressman Lee Hamilton, and another rather distinguished 
gentleman, the former Congressman Tim Roemer. Both are former 
Congressmen.
    Our second panel witnesses will be Professor Amy Zegart 
from UCLA and Mr. James Saturno of the Congressional Research 
Service.
    The Senate and House Intelligence Committees were created 
over 30 years ago as the congressional authorizers of the U.S. 
intelligence community budget and sensitive classified 
programs. In this role, the Senate Intelligence Committee is 
charged with carefully evaluating the legal foundation and 
operational effectiveness of a wide array of intelligence 
collection and analytic efforts that are linchpins to America's 
economic, diplomatic and security wellbeing.
    The Intelligence Committee is unlike any other Senate 
committee. Our secure workspaces are windowless. Everything is 
enclosed in lead. We are guarded by the Capitol Police. Much of 
our oversight efforts take place in hearings, most of which are 
necessarily held in closed session. Because the Committee deals 
with the nation's most sensitive secrets on a daily basis, we 
must conduct our work with great care to make sure that the 
public interest is served without compromising details that 
could give our adversaries an advantage.
    In the aftermath of 9/11, the intelligence community's 
performance in the months leading up to the attacks came under 
considerable scrutiny. The sobering findings of this difficult 
but necessary retrospective investigation were published in the 
Joint Congressional Inquiry Report of 2002 and the 9/11 
Commission Report of 2004.
    Two weeks before the 9/11 Commission issued its report, the 
Senate Intelligence Committee released a sweeping and 
devastating report on the flawed collection, analysis and use 
of intelligence preceding the invasion of Iraq. Together these 
efforts provided the push that led by the year's end to the 
passage of landmark legislation reforming the intelligence 
community to a certain extent.
    The focus on reform was not limited to the intelligence 
community, however. The effectiveness of Congress in overseeing 
these intelligence activities was brought into question as well 
and specifically by the 9/11 Commission, very pointedly and 
very properly.
    Were there ways that the legislative branch could improve 
its own efforts at ensuring that our counterterrorism efforts 
and other critical intelligence programs were responsive and 
effective to the threats that are facing our Nation?
    The Senate passed Senate Resolution 445 in October of 2004 
which set forth a blueprint of reforms designed to strengthen 
the Senate Intelligence Committee and eliminate artificial 
hindrances to carrying out oversight, such as doing away with 
the 8-year limitation, which had a long and sordid history, 
placed on Senators serving on the Committee. We now serve at 
the will and pleasure of our two leaders.
    Additional steps have been taken since the passage of 
Senate Resolution 445 to further improve the Intelligence 
Committee's oversight efforts. In February of this year, as the 
new Chairman of the Committee, I signed a memorandum of 
agreement, or MOA, with the Chairmen and Ranking Members of the 
Senate Appropriations Committee and the Appropriations 
Subcommittee on Defense, which is a bunch of words, except when 
you look at what I just said. And that improves the 
coordination and the transparency in how our Committees 
authorize and appropriate intelligence activities, which is a 
primary concern that was voiced by you on the 9/11 Commission.
    It's not us doing authorizing but it's--and I'll explain 
further--it's an integration which has been working of these 
two Committees.
    In order to improve the flow of information between the 
Committees under the MOU--memorandum of understanding--staff of 
the two Committees are notified of and allowed to attend the 
intelligence hearings of the other. In order to provide optimum 
staff support to Members, each member of the Intelligence 
Committee who also serves as an appropriator can bring his or 
her Intelligence Committee staff members during Appropriations 
Committee hearings and markups.
    In order to improve coordination between the two committees 
in their respective reviews of intelligence activities, all 
Senators and cleared staff of one committee are permitted under 
the MOA--memorandum of agreement--to review and report on any 
classified annex of the other committee before action is taken. 
So that gives us an insight into what the authorizers are 
doing, and it gives us a chance, the Vice Chairman and I, in 
order to intervene before they do markup. Before they do 
markup, we can go over there and talk loud.
    Moreover, the Chairmen and Ranking Members, as I've 
indicated, of each committee have the opportunity to appear 
before the other to present their respective views prior to the 
markup, which I've indicated.
    While there are other ideas for coordinating the oversight 
efforts of the two committees, which we will explore at today's 
hearing, I believe this memorandum of agreement, little known 
to the outside world, has made great strides toward bringing 
our committees together in a unity of effort that was lacking 
before. If not perfect, it is better.
    Strengthening congressional oversight, however, is more 
than changing boxes and lines on an organizational diagram. It 
is first and foremost about marshaling the resources at the 
Committee's disposal to ask the hard questions and do the 
necessary digging and conduct the sort of objective and 
unflinching evaluation needed to understand where change within 
the intelligence community in fact is required.
    In this regard, the Vice Chairman and I established study 
groups--we decided to go out on our own on this--within the 
Committee to get ahead of the curve and to examine the 
intelligence community's posture toward high-priority issues 
such as Iran, terrorist safe havens--wherever they might be--
China, and many, many other subjects. It's all done on a 
bipartisan basis. They all work together. They're, you know, 
furiously working, and then they give us their reports and it's 
very, very helpful to us.
    These efforts augment the invaluable work done by our core 
budget and issue staff monitors as well as the evaluations 
completed by our technical advisory group--something which most 
people don't know about but which is a group of five or six 
absolutely brilliant people entirely outside of Government who 
just have extraordinarily smart thoughts and things to say and 
say them very freely and openly to us.
    We've also held two to three Committee oversight hearings a 
week since January, covering a multitude of topics, including 
Iraq, Iran, Afghanistan, Pakistan, North Korea, covert action, 
cybersecurity, terrorist ideology, human intelligence 
collection, technical collection systems and detention and 
interrogation programs.
    In fact, the Committee has held over 60 oversight hearings 
and meetings in 2007, while at the same time reporting out a 
bipartisan bill on reforming FISA by a vote of 13 to 2, and the 
first authorization bill to pass the Senate in 3 years--and 
that's not necessarily big news to the outside world, but 
that's huge news to us, absolutely huge. And it's not done yet. 
It's not agreed to yet by the entire Congress or the President, 
but I think it will be.
    So the operation tempo of the Intelligence Committee has 
indeed been very high in 2007 thanks to the Vice Chairman and 
all of our Members, but there's always room for improvement and 
that is why we're holding our hearing today.
    Before turning to Vice Chairman Bond for his opening 
remarks, I want to vent a bit to highlight what I consider to 
be the greatest impediment to effective congressional 
oversight.
    For 7 years, I have witnessed firsthand how the 
Intelligence Committee has been continually frustrated in its 
efforts to understand and evaluate sensitive intelligence 
activities by an administration that responds to legislative 
oversight requests with indifference, if at all, and with 
usually outright disdain.
    For 5 years after 9/11, the administration refused to brief 
the full membership of the oversight committees on the 
existence of NSA's warrantless surveillance program and the 
CIA's secret prison system and interrogation techniques, the 
two programs the administration publicly touts as indispensable 
tools in the war against terrorism. Oh, they said that the 
``gang of eight,'' so to speak, or the top leadership in the 
Intelligence Committees were briefed, but having attended all 
of those briefings, I can say that that is one of--the way you 
advertise movies; it's just a bit of an overstatement.
    Those few congressional officials who were briefed were 
prevented from disclosing any details or having any 
conversations to any other Intelligence Committee members. I, 
for example, had Vice Chairman Bond and I had been receiving 
those, I could have not talked to him, nor could I talk to my 
chief of staff. I did write two letters of protest about the 
programs under review to the Vice President, one of which is 
public and one is not. But to discuss it with anybody? No--not 
with Dianne Feinstein, Senator Wyden, not with Senator Bond. I 
mean, it just didn't make any sense at all.
    It was a way of controlling what we had access to--giving 
us insufficient briefings about huge topics in which they had 
been potentially breaking the law and then preventing it from 
going any further in discourse.
    Now, these few congressional officials who were briefed, as 
I said, were muzzled. The end result was that the Intelligence 
Committees were bypassed for 5 years at a critical time when 
oversight into controversial legal and operational questions 
was needed in the most urgent fashion. It was an amazing 
asymmetric way of thinking.
    You know, you can get endorsement, you can get support from 
the Intelligence Committee, but you have to tell them what 
you're doing, and you can't withhold information from them, and 
you can't lie to them, and we faced a bit of that.
    In retrospect, the administration's unwillingness to deal 
with Congress as a full partner after 9/11 in authorizing and 
funding these programs was shortsighted and in turn created the 
compounded problems that we are dealing with this day.
    In my capacity, first as Vice Chairman and now as Chairman 
of the Senate Intelligence Committee, I am in an ongoing, 
pitched battle with an administration that myopically views 
congressional oversight as being at odds with protecting 
national security. In recent months, I have unsuccessfully 
urged the White House to give all members of the Intelligence 
Committee access to a number of so-called gang-of-eight 
programs--those are so-called very secret ones, like the NSA 
surveillance and the CIA detention programs, which I've 
mentioned that before.
    These programs are known--and just think about this: These 
programs are known to hundreds if not thousands of executive 
branch employees but cannot be shared with the Intelligence 
Committees, the Senate or the House--cannot be shared, will not 
be shared, and that's just the way it is. Only eight members of 
the legislative branch are trustworthy enough to know about 
them. Is that a proper standing of the public interest? I think 
not.
    For years, the White House and the intelligence community 
have repeatedly withheld information and documents, even 
unclassified documents, from the Committee that we have asked 
for. For instance, I have pressed the administration for years 
without success to turn over the Committee legal reviews 
concerning the lawfulness of the CIA's secret detention program 
interrogation techniques. We were successful in getting that 
done, but it was not a happy exchange.
    Just last week officials uniquely knowledgeable about the 
CIA program were prevented from meeting with the Committee 
staff to answer questions--not with the Committee members, but 
with the staff. They were here; they were ready. The meeting 
was set; the staff was set and then they were told to go to the 
airport and leave.
    It doesn't make this Chairman very happy. And it's 
something that I think that the 9/11 Commission understands but 
the American people need to understand very fully--that this is 
not just about how we get along with the authorizers; this is 
about a fundamental withholding of information which is, under 
the 1947 law, ours to understand. It legally is ours to 
understand, and they have ignored it. Maybe they ignored it in 
the previous administration. I don't know; I wasn't on this 
Committee then.
    So while we discuss today ways of further improving 
congressional oversight, I'd like to hear the views of each of 
our witnesses on the harm done to this statutorily mandated 
oversight when the executive branch decided it would rather 
bypass or ignore Congress in carrying out controversial 
intelligence programs.
    From my vantage point, the notion that congressional 
oversight is impeded simply because an authorizing committee 
may have a different view on spending priorities than an 
appropriation committee, I won't say it's simplistic; I just 
think it misses the larger point. We can work things out with 
the authorizers; we can work nothing out--we can work 
absolutely nothing out with the administration unless they 
choose to let it be worked out.
    Intelligence does not belong, evidently, to the 
Intelligence Committee. It belongs to those who, for political 
or policy reasons, decide that it will be given to us or not. 
And I am profoundly frustrated by this.
    And so, I mean, in closing, effective oversight is never 
going to be fully realized as long as the administration views 
the Congress as little more than a speed bump when it wants to 
carry out intelligence activities unfettered by what Congress 
might have to say about some of those programs.
    I now recognize the Vice Chairman.

OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, VICE CHAIRMAN, A 
                   U.S. SENATOR FROM MISSOURI

    Vice Chairman Bond. Thank you very much, Mr. Chairman, for 
holding this hearing today. You have received requests from our 
members to hold this hearing, and I appreciate you scheduling 
it.
    With respect to the points that you made, I was pleased to 
work with you so that we were able to have the Committee 
briefed on those critical programs such as the terrorist 
surveillance program and detention and interrogation 
techniques, which you discussed. And I think that goes a long 
way.
    But you will recall that during the debate on the 9/11 bill 
in March, you and I supported the sense of the Senate provision 
calling on the Committee and the Senate Homeland Security and 
Government Affairs Committee to conduct hearings on 
intelligence reform, specifically on congressional reform of 
fiscal oversight of intelligence, which is why I believe we're 
here today. Even though the Senate has adopted some of the 9/11 
Commission's recommendations on congressional reform, this most 
important area, in my view, has not been addressed.
    The 9/11 Commission stated that, of all our 
recommendations, strengthening congressional oversight may be 
among the most difficult and important, further stating that 
congressional oversight of intelligence and counterterrorism is 
now dysfunctional. The recommendation of the Commission to deal 
with that dysfunction was to consolidate authorization and 
appropriations in a single committee.
    I understand Senators Burr, Bayh, Snowe and Hagel and 
Feingold from this Committee, along with other Members, 
introduced a resolution on the Senate floor this morning to do 
exactly that, and I commend them for bringing greater attention 
to the issue. The traditional authorization and appropriations 
process, while not perfect, serves the Nation's needs 
adequately in most instances.
    So what's different about the oversight of intelligence 
within today's national security framework? How does it differ 
from the past?
    Well, throughout the cold war, there were two superpowers 
dominating the international arena. The primary function of 
national intelligence was to provide strategic warning of 
Soviet intentions or actions. The risk of miscalculation on 
either side could have resulted in a cataclysmic war involving 
nuclear weapons. Both the United States and the Soviets 
understood the conflicts; therefore the Soviets sought their 
political objectives through intimidation and coercion rather 
than actual war.
    That threat and, with it, the former purpose of national 
intelligence changed with the dissolution of the Soviet Union 
and the rise of a new and potentially more ominous threat. The 
Soviets did not seek violent confrontation as primary 
objectives, but our new adversaries seek violent confrontation 
and death as a primary means to their goals.
    The conversion of Islamist extremism with the spread of 
weapons of mass destruction technologies has dramatically 
shifted the burden and the need for national intelligence 
requirements at this point in our history. A failure of 
intelligence over the next decade and beyond, similar to that 
of 9/11, could result not in several thousand deaths but 
potentially several million.
    Surprise attacks by large-scale military forces of hostile 
nations can easily be detected by national technical 
capabilities, but a small suicidal cohort armed with a weapon 
of mass destruction is extremely hard to detect. This 
necessitates a fundamental shift in the purpose, organization, 
training and operations of our national intelligence 
capabilities.
    With that shift comes an increased demand for rigorous and 
consistent intelligence oversight by Congress. The question 
before us today is whether or not today's traditional 
bifurcated Senate oversight process is suitable to achieve the 
goals of oversight.
    Some would like to say that the change has already 
occurred, so we should call it a day. Well, as one of three 
appropriators for intelligence who also sits on the Committee 
along with Senators Feinstein and Mikulski, I can tell you that 
if the change has occurred, I haven't seen it. On the contrary, 
in my experience I've seen more evidence of a need for a better 
synthesis between the two.
    For example, this Committee is currently conferencing our 
2008 Intelligence Authorization Act with the House and we're 
looking at a number of issues where our bill is disjointed from 
the 2008 Defense Appropriations Act. As recently as a few hours 
ago, my staff was receiving calls from intelligence officials 
worried about a number of potential ``A not A''--appropriated 
but not authorized--issues. That's not a showstopper in most 
fields, but when it comes to national security and 
intelligence, it usually does not make a whole lot of sense.
    We have almost 50 professional staff on this Committee who 
spend all their time doing nothing but intelligence oversight 
day in and day out. And, as the Chairman so adequately said, 
we've had over 60 hearings. We spend a lot of time going in 
depth into all these issues.
    On the other hand, the Defense Appropriations Committee has 
fewer than a half dozen staff who write the intelligence 
appropriation portion of the defense appropriation bill, and 
that's less than one-tenth of the overall money in the bill.
    Our Committee has held scores of intelligence oversight 
hearings, the Defense Appropriations Subcommittee has held 
notably few. I think the disparity is clear. What I'm saying is 
this oversight, their power, on the budget is now disjointed.
    Let me be fair to my other committee, the Defense 
Appropriations Subcommittee. That committee does outstanding 
work, and I commend Chairman Inouye and Ranking Member Stevens 
for the attention and the time they've put into defense 
matters.
    But that is my point. That committee is consumed with 
defense matters--and they are major--not intelligence matters. 
The committee is wrapped up in nearly half-trillion-dollar 
appropriations bills, with less than one-tenth of it comprising 
the national intelligence program that we in the SSCI oversee. 
As SAC/D is currently constructed, it can't give intelligence 
the attention it deserves.
    Mr. Chairman, we discussed this issue at the beginning of 
this Congress and you believed, as you indicated, that the best 
path was to sign a memorandum of agreement with the chairmen 
and ranking members of the Appropriations Committee promising 
better coordination. I expressed to you my disagreement because 
I believed the MOA was weak and would not effect real change.
    I had hoped we would move together, but when I returned 
from an overseas trip and I found that an MOA had been signed--
and Senate counsel advises me it's invalid, but I don't think 
it would work anyhow. But since you brought it up, let's look 
at how difficult the issue has been by showing how ineffective 
the MOA has been.
    The MOA has four points. The first says the staff of each 
committee will be notified and allowed to attend the 
intelligence hearings of the other. I canvassed our staff and 
one of them once was invited to one meeting. My staff was never 
even notified of them, and I'm on that committee. Strike one.
    Second, it states that the members, the overlapping 
members, could bring one staffer with us to the SAC/D markups. 
Well, we've always been able to do that, yet the marks were 
decided well beforehand, so by the time we got there, the pie 
had already been sliced. Strike two.
    Third, we're supposed to be able to review the SAC/D mark 
before markup. We were shown it right beforehand, with no 
opportunity to provide SSCI influence to it. Strike three.
    Fourth and finally, the Chairman and Vice Chairman were 
supposed to appear before SAC/D to make our case for our marks 
and the SAC/D's Chairman and the ranking member were supposed 
to appear before our Committee to do the same thing. It didn't 
happen.
    Strike four.
    I have been looking at better integrating intelligence 
expertise in the appropriations process for some time, and 
regrettably I thought MOA would fail, as it has. I also don't 
think even if it were followed religiously it would address all 
of the concerns that your commission raised, and that's why I 
did not support it.
    So has anything really changed since the 9/11 Commission 
recommendation over the past few years? Well, this year our 
Intelligence Committee included in particular four major 
oversight initiatives. Each of these represents a substantial 
departure from business as usual.
    One, stop funding of cold war technology collection 
capability.
    Two, move to cheaper technical collection capability so 
more sensors can be deployed and provide more data to 
policymakers and the military.
    Three, realign the management of a collection program that 
has failed for more than a decade to deliver a capability 
integral to its mission. This represents the third consecutive 
year the Committee has identified severe technical and 
managerial difficulties in the program, some of which going 
back a decade.
    Four, undertake an innovative technology demonstration 
program.
    The first three of these initiatives were ideas the 
Chairman and I jointly supported and were recommended by staff. 
The fourth was an amendment offered by Senator Mikulski and me 
that was adopted on a bipartisan vote.
    Each of these issues was fully briefed to the SSCI members 
and approved by a vote of Committee members; on the 
Appropriations Committee, however, that did not happen. 
Senators Mikulski, Feinstein and I are members of the Defense 
Appropriations Committee, yet none of these four issues was 
brought before the SAC/D so that members could be briefed on 
them, debate and vote on them. In fact, the SAC/D marked up the 
nearly half a trillion dollar Department of Defense bill in 
about 20 minutes in an open session. That's far less time than 
we spent just debating one of the issues I discussed.
    If anyone thinks it's a new problem, it's not. In 2000, the 
previous administration proposed a new collection program. Our 
Intelligence Committee analysis indicated the program would 
cost substantially more than estimated and the utility of data 
collected did not justify the cost. Chairman Shelby and Vice 
Chairman Bryan at the time opposed the program. Subsequently 
Chairman Roberts and Vice Chairman Graham opposed the program. 
Chairman Rockefeller and I have supported program termination 
as well.
    We've been recommending termination of the program on a 
bipartisan basis for years. If you think the fight was just an 
inter-committee squabble, nothing could be further from the 
truth. Every outside technical review conducted on the merits 
of the program by the administration's outside experts 
recommended killing the program.
    In 2001, the Scowcroft panel recommended termination in 
NSPD-5. In 2004, an independent panel of technical collection 
experts appointed by the Bush administration recommended 
terminating the program. The outside technical advisory board 
of the agency in charge of the program recommended terminating 
it consistently. The first Director of National Intelligence, 
John Negroponte, recommended killing it.
    Chairman Rockefeller, when you were Vice Chairman and now 
as Chairman, you've been a consistent, vocal and articulate 
advocate for the program's termination. It took until recent 
time to end a program that at least should have been terminated 
a number of years ago, and unfortunately, all told, the loss to 
the taxpayers is astronomical--in the billions of dollars.
    I could go on, but suffice it to say that the same 
institutional and structural problems that have existed for 
years still impede our effective oversight.
    I'd like to hear what our witnesses say that Congress 
should do about it. I'm not backing any particular option yet. 
I've seen the 9/11 recommendations and the panel that Speaker 
Pelosi put together on the House side to address this issue and 
I've heard a number of others, a few of which I'm looking at 
closely, but I think there are good options from which to 
choose. They need to be discussed.
    Well, I think we can do better for the American people and 
for our job, Mr. Chairman. That's why I'm pleased you called 
this hearing so we can hear from our really distinguished 
expert witnesses and then at our business meeting next week we 
can discuss their ideas among others. I thank you, Mr. 
Chairman. I look forward to hearing from our witnesses.
    Chairman Rockefeller. Thank you very much, Chairman Bond.
    Vice Chairman Bond. Oh, let me ask unanimous consent. 
There's a short statement from the families of 9/11 that I ask 
be included in the record of today's hearing.
    Chairman Rockefeller. Without objection.
    [The information referred to follows:]

                 STATEMENT OF FAMILIES OF SEPTEMBER 11

    To be submitted for the record for the November 13, 2007 
public hearing of the Senate Select Committee on Intelligence
    More than 6 years after 9/11, the U.S. Congress can be 
applauded for the many changes it has enacted to ensure 
terrorists cannot attack our homeland again. Congress passed 
the Intelligence Reform and Terrorism Prevention Act of 2004, 
reforming the intelligence community and creating the Office of 
the Director of National Intelligence, while implementing 
dozens of other 9/11 Commission recommendations. This past 
summer, Congress passed the Implementing Recommendations of the 
9/11 Commission Act of 2007, providing for improved aviation 
security, creating a commission to study the prevention of 
Weapons of Mass Destruction terrorism and increasing 
information sharing among Federal, state and local law 
enforcement. These were much needed measures that are making an 
impact in the prevention of future attacks.
    Families of September 11, an organization of more than 
2,500 victims' family members, survivors and concern citizens, 
dedicated to making sure what happened on 9/11 never happens 
again, is proud to have worked with Congress over the past 6 
years to lend our support to their efforts. However, as big an 
impact as Congress' work has had, more needs to be done, and 
done now.
    The 9/11 Commission Report states ``[o]f all our 
recommendations, strengthening congressional oversight may be 
among the most difficult and important.'' The report outlines 
the pressing need for the overhaul of the current congressional 
intelligence oversight structure. ``Under the terms of existing 
rules and resolutions, the House and Senate intelligence 
committees lack the power, influence, and sustained 
capability'' to adequately oversee our nation's intelligence 
community.
    Families of September 11 understands what is at stake, and 
fully supports the 9/11 Commission's call for either a ``joint 
committee for intelligence'' or the creation of ``House and 
Senate committees with combined authorizing and appropriations 
powers''.
    This type of congressional overhaul is not easy. Some 
members stand to lose power. Change is uncomfortable, inertia 
takes over.
    But the consequences are too important to allow inertia to 
stave off needed structural reforms in Congress. Since 9/11, 
the intelligence community has been restructured to meet the 
new threat, but Congress has not.
    Now is the time for Congress to heed to the warnings and 
advice of the 9/11 Commission, to shine a spotlight on its own 
structure and evaluate its strengths and weaknesses in its 
ability to oversee our intelligence community.
    Families of September 11 is glad the Senate Select 
Committee on Intelligence is holding today's hearing, and 
welcomes an opportunity to share our unique perspective on the 
importance of reforming congressional oversight. Unfortunately, 
our membership knows all too well the possible consequences of 
inaction--in human terms--when bureaucratic self interest 
stymies oversight of the essential government function of 
intelligence collection and analysis. Due to the secretive 
nature of intelligence, American citizens can do little more 
than trust that our government is doing its job in both the 
executive and legislative branches. To do its job, properly and 
effectively, Congress must have all the tools necessary to do 
its job. The 9/11 Commission made clear that was--and is not 
now--the case.
    This year, Congress passed legislation that enacted 
virtually all of what were the report's as yet unimplemented 
recommendations. Is it really possible that the 9/11 Commission 
was right on everything except the changes needed within 
Congress itself? Please take the difficult step of re-
organizing to meet the current threat, so that Americans can 
begin to trust Congress again.
    Thank you for the opportunity to submit this statement for 
the record. Signed,
    Board members and founders of Families of September 11
    Donald Goodrich, Chairman of the Board
    Nancy Aronson, Treasurer Elinor Stout, Secretary Tim Barr, 
Board member Paul Bea, Board member Paul Chicos, Board member 
David Edwards, Board member Carle Lemack, Founder
    Chairman Rockefeller. And also without objection, we're 
going to keep the record open so that any Senator who wishes to 
include a statement in the hearing record can do that. Also 
without objection, the written opening statements of all 
witnesses will be included in the hearing record in full.
    It's now my honor to call on a most distinguished American, 
Lee Hamilton.

         STATEMENT OF HON. LEE H. HAMILTON, FORMER VICE

 CHAIRMAN OF THE 9/11 COMMISSION AND FORMER MEMBER OF THE U.S. 
                    HOUSE OF REPRESENTATIVES

    Mr. Hamilton. Thank you very much, Mr. Chairman, Mr. Vice 
Chairman, distinguished members of the Select Committee on 
Intelligence. Thank you for the honor to appear before you 
today. I testify on behalf of Governor Thomas Kean. He's not 
able to be with us today, but he joins me in the statement that 
I'm about to present.
    He and I both commend the Chairman and the Vice Chairman, 
of course, for holding this hearing. The importance of 
congressional oversight simply cannot be overstated. Senator 
Bond just has entered into the record the statement of the 
families of September 11. I was very pleased to see that 
statement. We've worked closely with them over a period of 
years and they are supporting, I think, the basic thrust of our 
testimony and we're very happy to have their support.
    Public Law 110-53 expresses the sense of the Senate that 
the Select Committee on Intelligence should report by December 
21 of this year on its recommendations for improving 
intelligence oversight. Therefore, this hearing is timely and 
we welcome the opportunity to present the perspective of the 
Chairman and the Vice Chairman of the commission. Tim Roemer is 
here as well. He was an absolutely outstanding member of the 9/
11 Commission, and I'm pleased, of course, to testify with him.
    Senator Bond mentioned that we wrote several years ago 
that, of all of our recommendations, strengthening 
congressional oversight may be among the most difficult and the 
most important. Carrying out effective oversight of 
intelligence is very, very hard to do. If you're the Chairman 
of a committee that works in the unclassified world, you get a 
lot of help--a lot of reporters who bring issues to your 
attention, trade associations write reports, citizens speak up, 
watchdog groups do studies; you get the Congressional Research 
Service, you have the General Accounting Office--on and on and 
on, all kinds of help.
    Not so in the classified world. The world of intelligence 
is vast. It is closed and it is complicated. It is comprised of 
16 agencies with well over 100,000 employees, as then-Director 
Negroponte indicated. The budget is $43.5 billion a year 
announced last week, even bigger if the spending for military 
intelligence is included. If you're on the outside world of 
intelligence, you know nothing about it other than what the 
executive branch decides to tell you.
    The Intelligence Committees are completely on their own. 
They serve as the proxy for the American people on 
intelligence. They provide the sole check and balance on a huge 
and important Government activity. If they don't provide the 
independent oversight, it simply doesn't get done. It's an 
awesome responsibility. In short, this is why we believe the 
Intelligence Committees need to be powerful and active. They 
need to carry out the robust oversight our system of Government 
requires. They need to look into every nook and cranny of the 
intelligence community's business. They need to ensure that 
laws are obeyed. They need to ensure that the American people 
are safe and that their freedoms are protected.
    The Founders understood the importance, of course, of 
checks and balances on Executive power. That's why they gave 
you the power of the purse. The single most important step to 
strengthen the power of the Intelligence Committees is to give 
them the power of the purse. Without it, you will be 
marginalized. The intelligence community will not ignore you, 
but they will work around you, and in a crunch they will go to 
the Appropriations Committee.
    Within the Congress, the two bodies with the jurisdiction, 
time, expertise to carry out a careful review of the budget and 
activities of the intelligence community are the Senate and 
House Committees. Senator Bond mentioned a moment ago the 50 or 
so staff members you have here and the handful of staff members 
you have on Appropriations in the Senate.
    When we were preparing the recommendations for the 9/11 
Commission, Governor Kean and I came up here and asked Members 
of the Senate caucuses, Republican and Democrat, House and 
Senate, how good a job you were doing on oversight. The word 
``dysfunctional'' was used by you over and over again, and we 
put it in the report. Two Senators said to me, looking back on 
the preceding fiscal year, that they had spent about five or 10 
minutes overlooking the intelligence budget in the 
Appropriations Committee for the entire year. Now I believe 
it's gotten better than that, but that's why we use the word 
dysfunctional.
    All of us have to live by the golden rule, and the golden 
rule is that he who controls the gold makes the rules. Leaders 
of the intelligence community also understand the golden rule. 
They work hard to get the answer they want from the people who 
control their dollars. They take advantage of the fact that the 
defense appropriators are mightily distracted from intelligence 
oversight because of their other responsibilities. You've also 
referred to that in your opening statement.
    I want to be very clear here. The Appropriations Committee 
performs the best oversight work it can. The difficulty is that 
that subcommittee is simply overburdened. It has responsibility 
for a $500 billion-plus defense budget, it's fighting three 
wars--terrorism, Iraq, Afghanistan--it has hundreds and 
hundreds of complex issues before it. It also has a 
responsibility for an intelligence budget about one-tenth the 
size of the defense budget.
    I can appreciate that the Appropriations Committee has 
brought on additional expert staff on intelligence issues. I 
was pleased to hear the Chairman talk about the integration of 
the Appropriations and the Senate Intelligence Committees and 
the work that has been done to improve the system.
    I like to hear about the focus on the key issues. You're 
going to be judged on a handful of issues, the big ones that 
confront American national security. Whether or not it's seen 
whether you do your job or the Senate does its job or the House 
does its job is really going to depend on a handful of issues, 
the big, big intelligence issues that this country confronts--
we all know what they are--with regard to our national 
security.
    So I appreciate the efforts that are being made in both 
houses in the Intelligence and the Appropriations Committees to 
improve coordination and transparency. They're useful steps, 
but they are not a substitute for fundamental reform.
    As the 9/11 Commission recommended 3 years ago, the 
Congress should either create a joint committee for 
intelligence--with budget power, of course--or create House and 
Senate committees with combined authorization and appropriation 
powers.
    It was a disappointment to us, but it came as no surprise, 
that the Congress did not act on the commission's 
recommendations. It's much easier for the Congress to reform 
the executive branch than it is to reform its own institutions. 
Committee powers in the Congress are carefully balanced. They 
are jealously protected. Changing jurisdiction means 
redistributing power. Few things are more difficult to change 
in Washington than committee jurisdictions.
    I served in the Congress. I was involved in several efforts 
at congressional reform. Some failed; none of them achieved 
more than partial success. And so I have a lot of sympathy with 
those who take up the challenge of reform.
    The approach that Governor Kean and I have taken since the 
commission issued its report is pragmatic. Our preference is 
for a single committee with authorization and appropriation 
powers. We believe that's the best approach. We can also count 
votes and, so far as I know, we don't see them.
    We believe that there are other constructive approaches. 
The same law that calls on this Committee to make 
recommendations on congressional oversight also requires the 
declassification of the overall intelligence budget. Last 
October 30, the Director of National Intelligence publicly 
released information on the overall intelligence budget. That 
was a recommendation of the commission and we applaud the 
Director's statement. A public number for the intelligence 
budget means it no longer has to be hidden inside the defense 
budget. A public number opens the way for the creation of a 
separate Appropriations subcommittee on intelligence.
    I understand full well that a separate Appropriations 
subcommittee on intelligence may not be the preference of this 
Committee. It was not the recommendation of the commission. But 
ways have to be found to bring greater focus and additional 
resources to the oversight of intelligence appropriations. 
Governor Kean and I will support reforms and structures that 
increase the opportunity and likelihood of robust congressional 
oversight of the intelligence community.
    Let me give you some practical examples as to why oversight 
of the intelligence community is more important than ever and 
why congressional oversight must be reformed and strengthened.
    First, the United States will without a doubt intervene 
again somewhere with military force. It may be the most 
important foreign policy question of the coming decades. 
Decisions whether to intervene and how to intervene will ride 
largely on what the intelligence tells us. It is vitally 
important that the intelligence community get it right. 
Oversight is vitally important to help the community get it 
right.
    Second, the Congress since 9/11 has provided broad 
authorities to the executive branch to conduct investigations 
and collect data. Enhanced collection capabilities and data 
mining pose high risks to civil liberties and to privacy. To 
safeguard our liberties, the Congress must conduct robust 
oversight over the exercise of the authorities it has granted.
    Third, the success of reform also needs congressional 
oversight. Reform in the intelligence community, the most far 
reaching since 1947, is not easy to implement. Reform is a long 
and hard road. Crises distract, attention wavers, senior 
officials are pulled in 100 different directions. The executive 
cannot carry out reform on its own. Support and guidance from 
the Congress are necessary to sustain reform. Sustained 
oversight is necessary.
    Chairman Rockefeller requested comment from us with regard 
to this very difficult question of access to information. 
That's not a new problem in the Congress. That goes back 30, 
maybe 40 years, when the committees have been fighting for more 
information from the intelligence community. When I was 
Chairman of the Intelligence Committee in the House, we fought 
that battle every single week. It has not been resolved.
    I don't know the answer to that except the only way to get 
the attention of the executive is to withhold the money. You'll 
get their attention quick when that money is withheld.
    The checks and balances in the Constitution are there for 
the Senators and the Members to exercise, if they will do it. 
If you want access to information and the executive branch 
won't give it to you--don't give them the money. You'll get the 
information.
    To conclude, let me just say that, under our Constitution, 
Congress cannot play its proper role unless its oversight 
committees are powerful and active. I was immensely pleased to 
hear a moment ago that you have had over 60, I think it was, 
oversight hearings during this year thus far. That shows a 
vitality and activity that I think is just extraordinary on the 
part of this Committee and you are to be commended for it.
    Strong oversight provides the checks and balances our 
Constitution requires. Strong oversight by the Congress 
protects our liberties.
    It makes our policies better. Strong oversight, I believe, 
keeps our country safe and secure.
    Thank you very much. After Congressman Roemer testifies, 
I'll be glad to help answer questions.
    [The prepared statement of Governor Kean and Mr. Hamilton 
follows:]


       opening statement of the hon. lee h. hamilton, former vice


       chair of the 9/11 commission, on behalf of himself and the


 hon. thomas h. kean, former chair of the 9/11 commission, before the 
             select committee on intelligence, u.s. senate


    November 13, 2007
    Mr. Chairman, Mr. Vice Chairman, distinguished members of 
the Select Committee on Intelligence: Thank you for the honor 
to appear before you today on the topic of congressional 
oversight of intelligence.
    My testimony today is also on behalf of Governor Thomas H. 
Kean, the former Chair of the 9/11 Commission. He is not able 
to be present today. He joins me in this statement.
    Gov. Kean and I commend the Chairman and Vice Chairman for 
holding this hearing. The importance of congressional oversight 
of intelligence cannot be overstated.
    Public Law 110-53 expresses the sense of the Senate that 
the Select Committee on Intelligence should report by December 
21, 2007 on its recommendations for improving intelligence 
oversight. Therefore, today's hearing is especially timely. I 
welcome the opportunity to present the perspective of the 9/11 
Commission's Chair and Vice Chair.


                        strengthening oversight


    As the Commission wrote in its final report 3 years ago, 
``Of all our recommendations, strengthening congressional 
oversight may be among the most difficult and important.''
    Carrying out effective oversight of intelligence is very 
hard to do.
    If you are the Chairman of a Committee that works in the 
unclassified world, you get a lot of help. There are lots of 
reporters who bring issues to your attention. Trade 
associations write reports. Citizens speak up. Watchdog groups 
do studies. You can get the Congressional Research Service to 
analyze an issue. You can get the Government Accountability 
Office to investigate.
    Not so in the classified world. The world of intelligence 
is vast, and it is closed. It is comprised of 16 agencies with 
well over 100,000 employees. Its budget is $43.5 billion a 
year, and even bigger if spending by the military services is 
included. If you are outside the world of intelligence, you 
know nothing about it other than what the Executive branch 
decides to tell you.
    The intelligence committees are completely on their own. 
They serve as the proxy for the American people on 
intelligence. They provide the sole check and balance on a huge 
and important government activity. If they don't provide the 
oversight, it doesn't get done. It is an awesome 
responsibility.
    In short, this is why we believe the intelligence 
committees need to be powerful and active. They need to carry 
out the robust oversight our system of government requires:
    <bullet>  They need to look into every nook and cranny of 
the intelligence community's business.
    <bullet>  They need to ensure that laws are obeyed.
    <bullet>  They need to ensure that the American people are 
safe and that our freedoms are protected.


                         what needs to be done?


    The Founders understood the importance of checks and 
balances on Executive power. That is why they gave the power of 
the purse to the Congress.
    The single most important step to strengthen the power of 
the intelligence committees is to give them the power of the 
purse. Without it, they will be marginalized.
    The intelligence community will not ignore you, but they 
will work around you. In a crunch, they will go to the 
Appropriations Committee.
    Within the Congress, the two bodies with the jurisdiction, 
time and expertise to carry out a careful review of the budget 
and activities of the Intelligence Community are the Senate and 
House intelligence committees.
    Yet all of us have to live by the Golden Rule: That is, he 
who controls the Gold makes the Rules.
    The leaders of the Intelligence Community also understand 
the Golden Rule. They work hard to get the answer they want 
from the people who control their dollars. They take advantage 
of the fact that the Defense Appropriators are mightily 
distracted from intelligence oversight because of their other 
responsibilities.


     why should the intelligence committee control appropriations?


    I want to be very clear here: The Appropriations Committee 
performs the best oversight work it can. The difficulty here is 
that the Committee is overburdened. The Defense Subcommittee of 
Appropriations has responsibility for a $500 billion-plus 
Defense budget. It has responsibility for three wars: 
terrorism, Afghanistan and Iraq, as well as hundreds of other 
complex issues. It also has responsibility for an intelligence 
budget about 1/10th the size of the defense budget.
    Now I appreciate that the Appropriations Committee has 
brought on additional expert staff on intelligence issues. I 
appreciate that the Intelligence and Appropriations committees 
are making efforts to improve coordination and transparency. 
These are useful steps, but they are no substitute for 
fundamental reform.
    As the 9/11 Commission recommended 3 years ago, the 
Congress should either create a joint committee for 
intelligence, or create House and Senate Committees with 
combined authorization and appropriations powers.


                        why is reform difficult?


    It was a disappointment, but came as no surprise to us that 
the Congress did not act on the Commission's recommendations. 
It is much easier for the Congress to reform the Executive 
branch than it is to reform its own institutions.
    Committee powers in the Congress are carefully balanced. 
They are jealously protected. Changing jurisdiction means 
redistributing power. Few things are more difficult to change 
in Washington than committee jurisdiction.
    During the time I served in the Congress, I was involved in 
several efforts at Congressional reform. Some failed. None 
achieved more than partial success. Therefore, I have great 
sympathy with those who take up the challenge of reform.


                         what is the next step?


    The approach that Governor Kean and I have taken since the 
Commission issued its report is a pragmatic one.
    Our preference, as the report stated, is for a single 
Committee with authorization and appropriation powers. We 
believe that is the best approach. We can also count votes. So 
far, we don't see them.
    We believe there are other constructive approaches. The 
same law (PL 110-53) that calls on this Committee to make 
recommendations on congressional oversight also requires the 
declassification of the overall intelligence budget.
    On October 30, 2007 the Director of National Intelligence 
publicly released information on the overall intelligence 
budget. That was the recommendation of the Commission, and we 
applaud the Director's statement.
    A public number for the intelligence budget means it no 
longer has to be hidden inside the defense budget. A public 
number opens the way for the creation a separate appropriations 
subcommittee on intelligence.
    I understand full well that a separate appropriations 
subcommittee on intelligence may not be the preference of this 
Committee. It was not the recommendation of the Commission.
    Yet ways must be found to bring greater focus and 
additional resources to the oversight of intelligence 
appropriations. Governor Kean and I will support reforms and 
structures that increase the opportunity and likelihood of 
robust congressional oversight of the intelligence community.


               why oversight is more important than ever


    Let me give some practical examples as to why oversight of 
the intelligence community is more important than ever, and why 
congressional oversight must be reformed and strengthened.
    First, the United States will, without a doubt, intervene 
again somewhere with military force. Decisions whether to 
intervene and how to intervene will ride largely on what our 
intelligence tells us. It is vitally important that the 
intelligence community get it right. Oversight is vitally 
important to help the community get it right.
    Second, the Congress since 9/11 has provided broad 
authorities to the Executive branch to conduct investigations 
and collect data. Enhanced collection capabilities and data 
mining pose high risks to civil liberties and to privacy. To 
safeguard our liberties, the Congress must conduct robust 
oversight over the exercise of the authorities it has granted.
    Third, the success of reform also needs congressional 
oversight. Reform in the intelligence community, the most far-
reaching since 1947, is not easy to implement. Reform is a long 
and hard road: Crises distract. Attention wavers. Senior 
officials are pulled in a hundred different directions. The 
Executive cannot carry out reform on its own. Support and 
guidance from the Congress are necessary to sustain reform. 
Sustained oversight is essential.


                               conclusion


    Under our Constitution, Congress cannot play its proper 
role unless its oversight committees are powerful and active.
    Strong oversight provides the checks and balances our 
Constitution requires.
    Strong oversight by the Congress protects our liberties and 
makes our policies better.
    Strong oversight keeps our country safe and free.
    I appreciate your time and attention, and look forward to 
your questions.

    Chairman Rockefeller. Thank you very much, Congressman 
Hamilton.
    Congressman Roemer, we welcome you.

        STATEMENT OF HON. TIMOTHY ROEMER, FORMER MEMBER,

    9/11 COMMISSION, AND FORMER MEMBER OF THE U.S. HOUSE OF 
                        REPRESENTATIVES

    Mr. Roemer. Thank you, Mr. Chairman.
    I'm going to ask unanimous consent that my entire statement 
be entered into the record, and I want to speak from the heart 
as a former Senate staffer, where I had my first job in the 
U.S. Senate, as a former Member of Congress, where I often 
fought with the executive branch for information, as a former 
member of the Intelligence Committee, where I will talk a 
little bit about some of the experiences and the frustrations 
we had on that committee getting information and answers as, 
Mr. Chairman, you have eloquently stated in your opening 
comments.
    Mr. Vice Chairman, nice to be with you. I applaud your 
efforts to recognize Senator Burr and Senator Bayh's bipartisan 
bill, because at the end of the day, that's the only way that 
we can successfully approach and solve this problem of gaining, 
rebuilding, reforming congressional oversight to counter the 
Executive power and will on that side.
    When I told my 7-year-old daughter, Grace, that I was 
coming up here to testify before Members of the Senate, she 
said, ``Daddy, are you in trouble?'' I think I knew the answer 
to that. Yes, I was walking into trouble. I'm a former staff 
member who did appropriations work for a United States Senator 
from the State of Arizona, Senator DeConcini, and I knew very 
well the battle that takes place between authorizers and 
appropriators.
    I remember when I decided to run for Congress and go back 
home to Indiana and they gave me a going away party. Running 
against an incumbent, we won. And I remember being greeted 
coming back, and they had a coming back to Washington party and 
they said: ``Mr. Roemer, you just went from being an 
appropriator to being a lowly House authorizer. We welcome back 
the intellectually challenged to Washington, D.C.''
    There is no doubt that this is a battle going on here in 
the Senate and over in the House.
    I want to talk about 9/11. I want to talk about the three 
most compelling reasons why we need these reforms, and I want 
to talk about some of the options that we have before the U.S. 
Senate and the U.S. House.
    The 9/11 attacks exposed a great many flaws in our defenses 
on that horrific day where we lost 3,000 people. Turf wars, 
cultures preventing information sharing and a lack of unity led 
to some of the problems on 9/11.
    Terrorism thrives on this division. They take advantage of 
it with dynamic action and entrepreneurial activity. And they 
can strike with airplanes as weapons and kill hundreds and 
thousands of Americans. Imagine if they get a dirty bomb or a 
nuclear weapon.
    Recognizing these flaws, the U.S. Senate and the U.S. House 
took action. They recognized that we needed to unify the 
executive branch in order to confront some of these 
difficulties and problems. You created a strong DNI; you 
created a strong National Counterterrorism Center. You created 
a Department of Homeland Security; I'm not so sure how strong 
that one is, but the effort was to centralize power.
    Now it's time to focus on a unified and robust 
congressional oversight structure. You've done that for the 
executive, now we need the countervailing balance, that power, 
on the legislative side, as Madison talked about, the first 
branch of Government. Let's make it a first-class and first-
rate power to compete with the executive branch.
    So I applaud this Committee's willingness to look at this 
difficult problem, to take on turf and money and internecine 
warfare.
    What are the three most compelling cases for reform? First, 
as Senator Bond I think very eloquently stated, there is a 
growing budget and growing fiscal responsibility to do this 
right. George Tenet released and declassified the budget in 
1997 for intelligence spending and back 10 years ago it was 
roughly $27 billion for the taxpayer. Mike McConnell just 
released this figure the other day; he said it was $43.5 
billion. Now you have 50 staffers on the Intelligence Committee 
to peruse, to look into that budget, to try to ask the tough 
questions about renditions, covert operations, special access 
programs.
    The Defense Subcommittee doesn't have 20 and they don't 
have 10; I think they have roughly a half a dozen people. And 
they have responsibility not for the $40 billion, but for about 
a $500 billion defense budget--including supplementals that 
come through that committee--so those staffers and those 
Members, as good a job as they can possibly do, are overtaxed 
and overburdened. And I think Congress needs to recognize that 
and address that.
    Furthermore, in intelligence we have some of the most 
sensitive collection technologies, the most sophisticated spy 
architectures, the most extensive covert programs and 
renditions and special access programs. Those need vibrant 
oversight.
    Two, the world has changed dramatically since 9/11. The 
cold war structure that was meant to deal primarily with armies 
and nation states around the world is not necessarily the 
primary threat to America today. It's rogue states; it's remote 
villages. It's the Internet, where al-Qa'ida recruits day in 
and day out. Al-Qa'ida, as I said before, can use airplanes to 
strike this Nation in a moment, in an instant, and try to kill 
hundreds of people.
    We still may have legacy budgets and legacy architectures 
from that cold war. We need to spend less time on the tactical 
side and more time on the long-term strategic planning to try 
to make sure our intelligence budgets are right and they're not 
just right for tomorrow, we get them right for the next five to 
10 years.
    Thirdly, very compelling reason for this reform is the 
critical nature today of intelligence. Intelligence has always 
concerned matters of life and death. Now we know that they also 
concern matters of going to war, of winning wars and of staying 
out of wars. And we also know that intelligence is compelling 
in that it will give us information on Iran and what we might 
do next and what options are out there to make the critically 
right and important decisions.
    We have assaults from a bloodthirsty enemy that creates a 
climate of fear in and out of our Government today, so it's 
very important that we get these intelligence budgets right. 
It's very important that we get the right kind of people before 
these committees. And my experience on the Intelligence 
Committee tells me that oftentimes when you serve on the 
authorizing committee that the intelligence community 
understands that and can game the system. They can circumvent 
that authorizing committee that has spent months doing budget 
oversight, that has spent years doing language capabilities and 
requirements and how needed that is for our rebuilding of our 
human resources and our human capacities, and they go to two or 
three people on the Appropriations Committee and get around 
months or years or work on the authorizing committee.
    Those 60 and 70 hearings, Mr. Chairman, that you pour your 
heart and soul into to find out what we need to do to get that 
intelligence community going in the right direction after 
mistakes, are sometimes absolutely ignored and circumvented and 
the intelligence community knows the game and they know how to 
play it. There is an old saying that if that play keeps working 
three yards up the middle in a cloud of dust, they're going to 
keep running the same play.
    What options do we have, Mr. Chairman and members of the 
Committee, going forward? I think, Senator Rockefeller, you 
outlined some ideas that are positive steps, progress: the 
memorandum of agreement, the creation of the Technical Advisory 
Group, the subcommittee that has empowered audit and 
investigative capability. I hope that is empowered even more 
with more staff and more capabilities.
    And the Speaker of the House led the way in creating a 
House oversight panel on appropriations that I think is working 
very well. I talked to several of those Members over the course 
of the last several weeks and they say it's working better with 
more staff doing oversight, with more Members doing oversight, 
with increased cross-pollination between the authorization and 
the appropriations committees and much progress is being made. 
I hope that that continues and that the Senate and the House 
will go further in how to address the problems before them.
    As the distinguished former Member of Congress, Congressman 
Hamilton stated, the 9/11 Commission has recommended two 
different options. And I have to say what an honor it is to be 
here in this room where the 9/11 families gathered so often 
with their pictures of their family members, where the 
committee held its hearings, where our distinguished Vice Chair 
who's led Indiana and is looked up to by so many Americans for 
his role in Congress and his post-roles since Congress, that 
I'm very honored to be before all you Members of the U.S. 
Senate.
    We recommended either combining the authorization and 
appropriations committees, no term limits, try to empower those 
members with increased knowledge and experience, as we don't 
put term limits on other committees, or create a joint 
committee on intelligence, similar to the Joint Atomic Energy 
Committee that worked in secret, that worked in a bipartisan 
fashion and worked effectively with the executive branch.
    In conclusion, let me just say going back to my days in 
graduate school, we were forced to read over and over and over 
again Woodrow Wilson's book, the classic that he wrote in 1885 
called ``Congressional Government.'' And he made two important 
observations. One, he stated, ``Quite as important as lawmaking 
is vigilant oversight of administration''--vigilant, vigorous 
work from our staff and our Members prying into what the 
executive branch is doing when they're doing more and more 
sensitive things that could possibly violate Americans' rights 
and liberties.
    And second he made the observation that, ``The informing 
function of Congress is to be preferred even to its legislative 
function, even to legislating and creating new laws, that 
Congress be empowered to do its job of overseeing the 
President, whatever party he or she may be, whatever views they 
represent.'' That is the fundamental responsibility of what you 
do every day when you come to work, I think, to make sure that 
we feel that the exceptional nature of intelligence warrants 
this exceptional approach from Congress to create this powerful 
type of committee.
    With that, Mr. Chairman, Mr. Vice Chairman, distinguished 
members, Mr. Hamilton and 9/11 families, I thank you.
    [The prepared statement of Mr. Roemer follows:]


                    statement of hon. timothy roemer


    Reforming Congressional Oversight of Intelligence
    Testimony Before the Senate Select Committee on 
Intelligence
    13 November 2007

    Of all our recommendations, strengthening congressional 
oversight may be among the most difficult and important. So 
long as oversight is governed by current congressional rules 
and resolutions, we believe the American people will not get 
the security they want and need.
    -The 9/11 Commission Report

    Mr. Chairman, Senator Bond, Members of the Committee, I am 
honored to be here today. The honor is particularly great given 
the presence of my former colleague and fellow Hoosier, Lee 
Hamilton.
    The 9/11 attacks revealed a great many flaws in the conduct 
of America's defense, many of which stemmed from a lack of 
unity across the institutions designed to protect us. 
Terrorism, we learned, thrives on division: turf wars between 
foreign and domestic intelligence agencies hampered information 
sharing; the Central Intelligence Agency and Department of 
Defense sparred over control of the intelligence budget; at the 
state and local level, first responders lacked compatible 
equipment and a sufficiently unified incident command system.
    Recognizing these flaws, Congress responded by attempting 
to enforce unity of effort throughout the government. It 
created the Directorate of National Intelligence and the 
National Counterterrorism Center to centralize control of the 
intelligence community and the nation's counterterrorism 
efforts. Domestically, it created the Department of Homeland 
Security to coordinate infrastructure protection and ensure a 
seamless transition between Federal and local security 
programs.
    I commend Congress for taking these important steps, as 
outlined by the 9/11 Commission, toward unity in the executive 
branch. Now it is time for Congress to focus on itself and on 
what the Commission labeled as one of its most important 
recommendations: a unified intelligence oversight structure in 
the Congress.
    The 9/11 Commission recommended a more coordinated--and 
therefore more robust--Congressional oversight structure 
because we recognized the critical role that the legislative 
branch plays in the conduct of America's national security. We 
acknowledged that countering the threat of terrorism 
necessitated a shift of authority to the government. The 
intelligence capabilities behind such enhanced authorities are 
more powerful and penetrating than at any time in American 
history. And yet, for the government to sustain the powers 
necessary to win the war on terrorism, it must maintain the 
public's trust that it will wield them appropriately.
    To do that, Americans must be reasonably assured that the 
Congress is fulfilling its constitutionally mandated role as a 
check on the executive. Reforming the structure and nature of 
Congressional oversight remains the best way to ensure Congress 
does so in the most effective manner possible.
    I applaud this committee for its willingness to examine 
such a difficult and complex issue.


                 the case for more and better oversight


    I would contend that the Commission's suggestions on 
oversight reform stand on their own merits apart from current 
events. But a growing intelligence budget, a more dangerous 
world and a growing reliance on intelligence for important 
policy choices have made reform all the more imperative.

    A Growing Budget
    Last month, the Director of National Intelligence revealed 
that the budget for the United States National Intelligence 
Program stood at $43.5 billion dollars. Hidden within those 
billions of dollars are the paychecks for a growing number of 
talented personnel and the price tags for some of the most 
sophisticated collection technologies and most sensitive 
programs in American history. With wars in Iraq and 
Afghanistan, a global fight against al-Qaeda and the need to 
maintain and improve our traditional collection activities, the 
prospect of either declining or stalled growth in the 
intelligence budget seems remote in the near term.
    The sharp growth in the intelligence budget also strains 
the existing and already taxed oversight structures in 
Congress. In addition to overseeing a growing intelligence 
budget, the Defense Appropriations Subcommittees in both the 
House and Senate--the bodies responsible for appropriating the 
intelligence budget--have to contend with the responsibility to 
oversee an even faster growing defense budget. Put simply, we 
need more oversight of intelligence because there is so much 
more intelligence to oversee.

    The World Has Changed
    Congress cannot remedy all of the problems of oversight by 
simply doing more of the same in part because the intelligence 
community of today little resembles the one which Congress 
first designed its oversight structures to monitor. In years 
past, no single official enjoyed central command of the many 
intelligence agencies. The intelligence budget represented the 
priorities of agencies more than the community as a whole.
    Much work still remains to be done to ensure the 
intelligence community moves in unison. Today it is nonetheless 
more of a unified entity than before. The 2004 Intelligence 
Reform and Terrorism Prevention Act, as well as subsequent 
legislation, have placed broad authority over the community's 
budget and personnel into the hands of a single official. Faced 
with an intelligence community more unified in asserting its 
own priorities, the voice of Congress remains splintered across 
four committees in two chambers.
    The world that the intelligence community is charged with 
providing information on has changed drastically, as well. The 
end of the cold war brought with it rogue states and non state 
actors willing to challenge the world's remaining superpower. 
The most critical information no longer resides exclusively in 
military bases or in European embassies, but also in remote 
villages, on the internet and in the world's forgotten corners. 
It is of the utmost importance that the intelligence committees 
seek to do more long term planning to better match resources 
with changes in the global security environment. Unfortunately, 
the twin pressures of authorizing each year's multibillion 
dollar intelligence budget and attending to the numerous 
foreign policy ``hotspots'' consume most of Congressional 
overseers' time. This leaves precious little time to devote to 
the development of a strategic outlook.

    The Critical Nature of Intelligence
    Intelligence, as a supplement to American foreign and 
national security policy, has always concerned matters of life 
and death. It can win wars, lose wars or prevent them 
altogether. In today's increasingly uncertain world--
particularly one in which preemption features prominently in 
America's defense policy--it is especially crucial. We are not 
simply collecting more intelligence, but asking more of it, as 
well. In 2003, our decision to use military force in Iraq 
hinged on it. Both today and tomorrow, intelligence will play a 
crucial if not deciding role in the important decisions we must 
make about our policy toward Iran. Given the great numbers of 
lives at stake, in a scenario of either military action or 
inaction against Iran, Congressional oversight to ensure the 
accuracy of Iranian WMD intelligence--or intelligence on any 
other nation's WMD capability for that matter--will in no small 
way influence the course of American history.
    It is also undeniable, regardless of one's views on the 
many controversial intelligence programs undertaken since 9/11, 
that the intelligence community is using more aggressive tools 
to collect information than ever before. The assault on America 
and its allies from a swift and ruthless enemy has 
understandably created a climate of fear both inside and 
outside of government. The mixture of threats, fear and 
enhanced executive power can prompt the intelligence community 
to push right up to the line of legal and ethical 
acceptability. This climate can just as easily push it far 
across. Congress' increased attention is required to ensure 
that the latter does not happen.


                                options


    In the face of such challenges, Congress has undertaken 
some reforms to address past difficulties and to address the 
fluid national and international environment.
    <bullet>  The House has taken a constructive step forward 
in the creation of the House Appropriations Select Intelligence 
Oversight Panel.
    <bullet>  The Senate reduced the number of spaces on the 
Intelligence authorization committee from 17 to 15.
    <bullet>  The Senate Select Committee on Intelligence has 
signed a memorandum of understanding with the Senate's Defense 
Appropriations Subcommittee pledging to share information more 
freely and coordinate better on budget priorities.
    These changes are praiseworthy. But the revolutionary 
changes in the world and in government demand a solution from 
Congress that is more than the sum of a few individual reforms. 
The 9/11 Commission recommended two options that would reform 
oversight in proportion to the different world in which it must 
now operate.

    Combine Authorization and Appropriations Powers in Each 
Chamber
    First, Congress could grant joint authorization and 
appropriation authority to a single committee in each chamber.
    The necessarily secret nature of intelligence denies 
intelligence committees the ability to oversee the community in 
ways that are routine for other committees. Classification 
means only a small number of outside experts, nongovernmental 
organizations or members of the private sector are able to help 
Congress independently evaluate the intelligence community's 
management and activities. Similarly, it prevents Congress from 
leveraging public pressure against executive branch actions of 
which it disapproves.
    In the realm of intelligence, Congress is forced to check 
and balance the executive with one hand tied behind its back. 
Devoid of the full range of tools available to other 
authorizers, the intelligence committees must rely heavily on 
the power of the purse to assert their will. By combining 
authorization and appropriation powers into a single committee 
in each chamber, Congress could speak to the executive branch 
on intelligence matters in a more unified voice using the 
language that most commands its attention.

    A Joint Committee on Intelligence
    A second option would be to combine the authorizing bodies 
from each chamber into a single committee modeled on the Joint 
Committee on Atomic Energy. The Joint Atomic Energy Committee 
serves as a particularly apt framework because its consolidated 
jurisdiction over authorization in the House and Senate allowed 
Congress to oversee a powerful new capability, with speed, 
secrecy and the confidence of the executive branch.
    Either new structure would require a range of other powers 
and changes, codified by resolution, in order to function as 
intended. It should reduce the number of seats available, both 
to encourage greater accountability in the legislative branch 
and greater trust from the executive branch. Membership should 
be drawn from the Defense Appropriations Subcommittee, as well 
as the Judiciary, Foreign Affairs and Armed Services 
Committees, in order to reflect the views of intelligence's 
many constituencies. Membership should also not be constrained 
by term limits to allow Members to develop the expertise 
necessary to oversee a dense and complex collection of 
agencies.
    Critics note that both of the Commission's proposed reforms 
represent an exception to the general practice of Congressional 
oversight. We feel that the exceptional nature of intelligence 
warrants an exceptional approach from Congress.


                               conclusion


    Woodrow Wilson, as many of you may recall from your 
government classes, wrote a classic book in 1885 called 
Congressional Government. He made two particularly perceptive 
insights regarding oversight. First, he stated that ``quite as 
important as lawmaking is vigilant oversight of 
administration.'' His second observation was that the 
``informing function of Congress is to be preferred even to its 
legislative function.'' Absent vigilant oversight, the 
informing function is weakened and, as Wilson concluded, both 
Congress and ``the country remain in embarrassing, crippling 
ignorance of the very affairs which it should understand and 
direct.''
    If Congress is to be the ``First Branch'' of government, 
then focusing on greater efficiency and accountability in the 
intelligence community is worth doing the right way.
    I thank you for the opportunity to speak on this important 
matter and look forward to your questions.

    Chairman Rockefeller. Thank you very much, Congressman 
Roemer. You spoke from the heart with a lot of erudition.
    Mr. Roemer. Thank you, sir.
    Chairman Rockefeller. You just memorized that Woodrow 
Wilson book.
    Mr. Roemer. It's a terrific book; I think I had to for 
graduate school.
    Chairman Rockefeller. OK. Let's just cut to the nub of 
this. Actually it was very interesting to me.
    The Vice Chairman and I never look at each other's 
statements before we open meetings. And we have a very good 
record, I think, I believe, on working in a bipartisan fashion. 
And I think it's been noticed in the intelligence community.
    But let's get down to some of the practical considerations, 
and I'm really seeking your guidance on this. I gave a 
statement in which I talked about the appropriations matter, 
which to be honest was sort of fulminated over a particular 
not-to-be-talked-about matter. Having said that, the concept of 
having the Intelligence Committee doing both the authorizing 
and the appropriations is deeply attractive to me, is deeply 
attractive to me. Where I run into trouble is not on the 
philosophy of it or on the righteousness of it, because we have 
so much more expertise than they have, as the Vice Chairman so 
eloquently put--I mean so much more; it is our obsession.
    The question comes, when this was put to the Senate, this 
idea, it got 23 votes, and Congressman Hamilton referred to 
that, you know, when he said, ``I can count.'' And so that 
brings me to a conundrum. In other words, one part of me says, 
OK, so you get 23 votes. So you persist. That's what life is 
about. That's the way both the Vice Chairman and I were able--
incidentally, they don't just game us, Congressman Roemer; we 
can also game them, and I've gotten pretty good at that. And 
it's an interesting process and not all that difficult.
    But if we push this concept and we get 23 votes--but that 
was before. Now, we come back at them again. There is no 
particular weakening of the Appropriations Committee that I've 
noticed, but I may be entirely wrong; I mean, I'm not on it and 
I wouldn't be on it. I wouldn't be on it; that's not 
interesting to me. This is interesting to me. But if you push 
the vote again and you again get 23 votes, you get 25 votes, 
you get 27 votes, you get 20 votes, can it be said that, in 
fact, your position has weakened, and that other efforts to 
cooperate with them, if that is possible, are also weakened 
because the vote failed by a large margin?
    Now, the Appropriations Committee is a very mysterious and 
amazing presence among all of us. And everything always comes 
down to that because they have the money and it's hard to get 
around. But if you get 23 votes for something, you can either 
come back and try it again and try it and try it again, or you 
can also look at some of the things that I suggested, what I 
think Vice Chairman Bond pointed out very well that hadn't 
necessarily worked, although I think in many cases that's 
simply because the effort was not made because maybe we were 
doing too many hearings and also the appropriators are very 
skillful in the way they time what they do.
    But speak to me in plain terms about the strategy of 
getting the Congress or getting the American people to 
understand that unless we do both of these processes--we do the 
authorizing and we do the appropriating--I am all for that, and 
you can put me right on the Burr bill. Don't do it quite yet, 
please.
    [Laughter.]
    Chairman Rockefeller. But I need to know the answer to that 
question, because if you fail, then you fail again, you're 
weaker. If you're weaker, then other things that you're trying 
to do to try and supplement or to move in further directions, 
to go around a corner or to come up from underneath behind them 
or something of that sort, are also weakened.
    And I am perplexed by such and would seek your wisdom.
    Mr. Hamilton. The new factor is the publication of the 
intelligence budget.
    Now, in the past, the defense appropriators have always 
said no, no, we can't disclose that figure and therefore we 
can't have a subcommittee to deal with just the intelligence 
budget. That is by the boards now. Everybody now knows what the 
intelligence budget is and you can bypass, if you would, the 
traditional opposition of the defense appropriators, at least 
on that point. So that's an important point.
    Secondly, the mere fact that you negotiate a memorandum of 
agreement and that the House, as Tim was testifying a moment 
ago, has changed their way of handling the budget and all of 
the discussion indicates that the Senate recognizes you're not 
doing the job or you wouldn't be thinking about all these 
reforms. There must be then a feeling in the Senate that we're 
not doing as good a job as we ought to be doing on intelligence 
oversight. If there isn't that feeling, you wouldn't be making 
reforms. But you are making reforms.
    The third point would be look at what tactical moves should 
you make as the Chairman of the Committee in order to garner 
more votes above the 23 for this authorizing and appropriating. 
I don't know that I can be very helpful. You have to make those 
judgments yourself after talking with your colleagues about it.
    To me, the strong point simply is that the Senate of the 
United States and the House of the United States is not doing 
its job. And because you're not doing the job, the country is 
not as safe as it ought to be, because one of my premises is 
that robust oversight is necessary for a stronger intelligence 
community. I don't think the intelligence community agrees with 
that.
    They may rhetorically agree with it, but deep down I don't 
think they really agree to it. But you and I, I think, would 
agree to it. And you just have to keep pushing to go as far as 
you can to get necessary changes.
    Now, this is not a trivial matter. You're not dealing with 
the jurisdiction of the Education Committee, where it doesn't 
make very much difference, frankly, who has the control of it. 
You're dealing here with the national security of the United 
States, and the Senate and the House ought to have the deep 
down feeling that we've got to get this thing right.
    So that's about all I can say. I applaud, Mr. Chairman, 
your efforts within the world you have to operate in, but I 
think we're on the right side of this issue in terms of the 
effectiveness of the Senate or the House in conducting its 
responsibilities and you just have to keep pressing that issue.
    And the appropriators, look, have to be persuaded here that 
they haven't been doing their job on intelligence, not because 
they don't want to. I'm sure they do want to. They're just 
simply overloaded.
    You cannot take a $500 billion budget--that doesn't include 
the supplementals, I don't think it does--and do an effective 
job of oversight on that kind of a budget, even with the staff 
they have. They just have so many questions. With all of that 
responsibility, they cannot do an effective oversight of 
intelligence.
    And if I'm right about the importance of intelligence in 
American foreign policy in the future--intervention being the 
key question--your responsibility is to get the very best 
intelligence you can possibly get. I think that's what you have 
to work toward.
    Chairman Rockefeller. I apologize to my colleagues, but the 
declassifying of the top line I don't think was a huge matter 
to the Appropriations Committee. It was not a huge matter. It 
was not a big deal because it doesn't----
    Mr. Hamilton. Well, it's a big deal in terms of 
jurisdiction because----
    Chairman Rockefeller. Yeah, but it doesn't tell you 
anything.
    Mr. Hamilton. What's that?
    Chairman Rockefeller. It doesn't tell you anything.
    Mr. Hamilton. No, I don't think it tells any secrets.
    Chairman Rockefeller. Right. And then the second matter 
is--I mean, I can't escape it. I mean, we can pass a law if we 
could ever get the votes. I'd vote for it. But I don't think 
you answered my question.
    Mr. Roemer. Mr. Chairman?
    Chairman Rockefeller. I don't think you answered my 
question because you said we have responsibility for the 
national security. You better believe that we understand that. 
You better believe that when I was one of four being briefed on 
certain programs and they were appearing on television all the 
time saying: Oh, the Congress has been briefed, and I'd love to 
discuss some of those briefings to you and I won't do it, but 
they were superficial, they were inconsequential.
    And so it's a question of us reforming ourselves and then 
me, as Chairman, working with our Committee members and Vice 
Chairman Bond trying to get that 23 up and educating the 
Appropriations Committee.
    But it's also a little bit the responsibility of the 
executive branch of Government, and I just don't think you can 
pass that over. I just don't think you can say well, they're 
all the same. There's never been anything like this--never in 
the way of shut-out of information--willful, gleeful--stemming 
from the Vice President's office and David Addington and other 
things of that sort.
    And I've gone on too long. I'm very angry about it. I'm 
very angry about it, and I think it's a very, very big factor.
    Mr. Hamilton. You have a right to be angry about not 
getting access to information. You can't do the job unless 
there is trust between the executive and the legislative 
branch.
    Chairman Rockefeller. And there is not.
    Mr. Hamilton. Trust is the coin of the realm, and no matter 
what kind of institutional structure you put into place, no 
matter what kind of organization you make, if you don't have 
that underlying trust, the system's not going to work very 
well. And part of underlying trust is whether or not they're 
willing to share information with you. I'm 100 percent with you 
on that.
    OK, they don't share information. What do you about it? 
You've only got one tool: ``If you don't give us this 
information, you're not going to get the money.'' That's it.
    Mr. Roemer. Mr. Chairman?
    Chairman Rockefeller. Please. And I apologize to my 
colleagues in genuine, genuine terms.
    Mr. Roemer. Mr. Chairman, I want to just underscore and 
associate myself with Mr. Hamilton's remarks.
    Answering what you said might be a strategy to go at this 
in the next round after you get 23 or 24 or 25 votes on 
something like this, first of all, I think that I completely 
share your frustration about the example that you used about 
the gang of eight.
    I was never one of the gang of eight, but part of the rules 
on the Intelligence Committee is when you get briefed into a 
special access program oftentimes you're in there with no 
staff, no other Members, you cannot take notes, you cannot go 
out of the room and go to Senator Feinstein or Senator Snowe or 
Senator Whitehouse or anybody else and say, ``I've got an idea 
for an amendment; there's a cost overrun that I'm concerned 
about.'' You can't do any of that.
    These are extraordinary restrictions so there is 
extraordinary action and robust congressional oversight that 
needs to be considered for that. You can use the press in other 
hearings. When you find that oversight and that abuse on 
budgets on the Education Committee, we can expose that with 
sunlight. You cannot do that on the Intelligence Committee.
    Secondly, what Congressman Hamilton I think emphasized 
was--what was that saying in the Tom Cruise movie--show me the 
money. That's absolutely the way to get their attention.
    And the way for you to argue this with the appropriators is 
for each and every staffer that has oversight on the defense 
appropriations committee, they're responsible for about $100 
billion. Who can do that real well? Who has the time and the 
energy and the resources to oversee both the defense and the 
intelligence budgets combined with supplementals to do that 
effectively for our taxpayers? And we just saw in the New York 
Times the cost of architectures when they go over budget to the 
American taxpayer.
    And third, you know, just saluting Senator Burr, who has 
left, I think when you have the time to begin to focus on a 
particular bill and amendment and you can talk to your 
colleagues on the floor rather than just a surprise amendment--
here's a 9/11 recommendation; you know, by the way, it's to 
consolidate committees and so forth and you're taking on 
power--that's very difficult.
    But when you have a bill, a bipartisan bill with respected, 
respectable, good, thoughtful people on it and this one does--
and if you joined, Mr. Chairman, it really gives it added 
impetus and momentum with Mr. Bond--then you begin to work your 
colleagues and you have a few weeks or months to try to show 
that you can get that vote up into the 30s or 40s or maybe 
prevail.
    So I think given the time and the resources, I think you've 
got a vehicle now to go forward and a more effective way to do 
this.
    Chairman Rockefeller. I thank you, sir, and I apologize to 
my colleagues and the Vice Chairman.
    Vice Chairman Bond. Thank you, Mr. Chairman and Congressman 
Hamilton and Congressman Roemer. We really appreciate your very 
thoughtful and very important testimony, and I was going to ask 
you a couple of questions. If I have any time left, I will do 
that. I certainly want to follow the 5-minute rule.
    But I want to point out that there's some things that have 
changed. Number one, we've had experience under the new 
structure of the Director of National Intelligence. I didn't 
vote for that, the initial bill, because I didn't think it gave 
the DNI enough power. And we're going to hold hearings and 
we're going to work with him because we're finding they don't.
    Also I think we have seen that there is still a real gap 
between authorization and appropriations that is costing money 
and inhibiting our effective oversight. I outlined in my 
opening statement where we blew a lot of money, and I think we 
were not nearly as effective as we could have been.
    Now, I should say by way of aside, what I mentioned 
earlier--and that is that I've worked very closely with the 
Chairman, with the director of national security and we have 
greatly expanded in this year the access to all members of the 
committee and most of the staff to these most sensitive 
programs, and I am strongly committed to expanding that.
    But I think you made the point that if you don't show me 
the money, you're not going to get the bill. You're not going 
to get the resources you need. And this is--I think your 
testimony, the experiences that we've had, the fact that we've 
had time to look at it, I think this is a game-changing mode. 
And I like Congressman Hamilton's idea.
    We don't necessarily have to go so far as to take away from 
the Appropriations Committee the appropriating authority. But 
what we do need to have is a statutory responsibility that our 
recommendations of this Committee, implemented through our 
staff experts on budget--and we've got excellent budget people 
on this authorizing committee--should be in a position to take 
the initial allocation for the national intelligence program, 
working with our Committee, lay it out, and have overlapping 
members of this Committee and the SAC/D with additional 
committee members and Chairman and Ranking Member, if 
appropriate, serve on a subcommittee and bring that up to the 
full committee.
    I have no doubt that, within the committee structure of the 
Appropriations Committee, if you brought a well-thought-out, 
well-staffed national intelligence program, it would be very 
rare when the full committee--unless there was an 
overwhelmingly good reason--would overrule it.
    But our good ideas haven't even had a chance. I'll take the 
opportunity in the limited sunlight of a closed appropriation 
hearing. If we have our staff working with the full members of 
the SAC/D along with authorizers, I think we can make the case. 
If they beat us on one or two, they're going to have to have a 
good reason.
    So I thank you, and I think you've given us a game-changing 
scenario.
    I just thought I'd ask the two of you if, in your 
experiences when you served on the House Permanent Select 
Committee on Intelligence, you were shut out from 
recommendations from the Appropriations Committee or were not 
permitted--you did not have opportunities to make changes in 
the appropriations measures that your committee, authorizing 
committee, thought were very important.
    Did you have any such experiences?
    Mr. Hamilton. Well, of course we did, Senator Bond. And you 
have to work in the environment and in the context and under 
the rules that you have.
    And when I was Chair of the Intelligence Committee, we were 
frequently, continually bypassed. How did I deal with that? 
Well, I dealt with it by very, very close contact, 
consultation, with the Chairman of the Appropriations Committee 
and the Chairman of the Defense Subcommittee. And I tried to 
persuade them of the value of the Committee recommendations. In 
other words, I tried to use what influence I had as an 
authorizer with the appropriators.
    The intelligence community wasn't going to pay any 
particular attention to me, even though I was Chairman of the 
Committee, because they knew they didn't have to. And they 
didn't.
    How did I deal with it? Well, I went to the Chairman and 
the ranking members of the appropriating committees and dealt 
through them.
    I want to comment on one thing that I think you alluded to, 
this question of who do you inform on the Intelligence 
Committee. It used to bother me a great deal.
    Bill Casey was the Director of the CIA when I was the 
Intelligence Chairman, and we had a very good working 
relationship. He was a very able director. But he would 
continually come to me, almost on a daily--not daily, but 
weekly basis and say, ``Lee, I've got some information here 
that I'm perfectly willing to share with you, but I don't want 
you to share it with anybody else on the Committee.''
    And I told Bill Casey, I said, ``Bill, that just puts me in 
an awful spot as Chairman, and I'm not comfortable with it.'' 
And so I said my general rule is going to be that unless you 
can share it with members of the Committee don't bring it to 
me. And that's basically the rule we adopted.
    Now, I'm not sure I was right about that. That's kind of an 
agonizing situation to be in, but that's the choice I made at 
the time.
    Bill Casey would come back and say, ``Well, you're denying 
yourself information that you ought to have as Chairman.'' But 
what good is the information if I can't do anything with it? 
And you're often in that spot if you're in the gang of eight 
today or in some other roles and you're given information that 
is terribly important. What good does it do to have the 
information if you can't do anything with it?
    That's a dilemma that I think you must confront. It's a 
difficult one. That's the way I resolved it. I'm not sure 
that's the right way.
    Mr. Roemer. Senator, I thought, first of all, you made a 
very good point about the DNI authorities. And the Senate bill 
is different from the House bill. I think the Senate bill is 
strengthening and defining those authorities more clearly and 
giving the DNI more power. The House bill doesn't go quite as 
far as the Senate bill does.
    One of the things we said on the 9/11 Commission is when 
you create this very powerful and strong executive branch 
entity, the Director of National Intelligence, you best create 
a very strong entity to oversee it and create robust and 
vigorous congressional oversight. You're going to be looking to 
strengthen this body over here. You better make sure that, you 
know, our body--the congressional body here can continue to 
oversee those authorities.
    To your point about staffing and authority and the House 
panel, I thought the Speaker and the Members on the House side 
took some very good steps about increasing staff on the House 
side on this appropriations panel. I think it went from one and 
a half to five or six, and they're trying to get to seven, 
eight or nine people.
    They're also spending much more time doing oversight on 
that appropriations panel. The members that I talked to are 
very pleasantly surprised. They think they are making a 
significant difference.
    They're also pleased with their relationship with the 
Defense Subcommittee and their work between the intelligence 
panel, the subcommittee panel and the full defense 
appropriations. Their recommendations are generally being 
accepted by the defense appropriations full committee.
    So the working relationship is good. The staff in 
increased. The amount of oversight is increasing, and then 
there are three members of that panel that are on the 
authorizing committee on the House side, and they're increasing 
the power of the authorizing committee.
    So those are positive steps going forward. I think 
Congressman Hamilton and I would still say that the single 
committee, the approach that you're taking and Senator Bayh and 
Senator Burr, is the preferred approach.
    Vice Chairman Bond. Thank you very much, Mr. Chairman.
    Chairman Rockefeller. Thank you, Mr. Vice Chairman.
    Senator Wyden?
    Senator Wyden. Thank you, Mr. Chairman.
    One question for each of you that deals with concrete 
examples of what I think needs to be done for effective 
oversight.
    I noted that in your 9/11 Commission report, Chairman 
Hamilton, you said that the FBI had little appreciation for the 
role of intelligence analysis, and the FBI's information 
systems were woefully inadequate.
    So, recently we had FBI senior officials up here and I said 
part of effective oversight means you go back and see what's 
been done to correct what your commission found. And so I had 
to go round and round with them, but finally we managed to pry 
out of these senior FBI officials that only two of the 24 
senior intelligence analyst positions created by the Congress 
had been filled and that a very substantial portion of these 
analysts and agents at this point do not have access to the 
Internet at their desk.
    So we've got a problem you found. We, doing our job in the 
oversight area, ask about it again. I'm planning to bulldog 
this until it gets corrected.
    What's your sense about the next move?
    Mr. Hamilton. The first observation would be if the 
principal role of the FBI is shifted from law enforcement to 
counterterrorism or domestic intelligence, the role of the 
analyst becomes critical, to the point where what the analyst 
does should drive the whole FBI.
    Now, as you'll recognize, what I just said goes against the 
whole culture of the FBI because, in the FBI, the special agent 
in charge is the king. He's the king of the hill. So you have 
to improve the quality, the expertise of the analyst if they're 
going to carry out this function of counterterrorism.
    I'm not persuaded that that's happening in the FBI today. 
In other words, the law enforcement culture is so deeply 
ingrained it's hard to change, and I recognize Director 
Mueller's making a heroic effort here.
    Now part of that is the systems that you have identified. 
They do not yet have the tools to get the information they need 
to be an effective analyst. And my sense of that, Senator 
Wyden, is that the FBI has just had huge management problems 
and they've not dealt with them effectively. I think they're 
dealing with them better than they did. You know the systems--
the problems they've had with their IT system.
    So you're going to ``bird dog'' it. That's terrific. That's 
exactly what needs to be done. Somebody has to focus on the 
role of the analyst in the FBI and to make sure that the 
analyst has the information he or she needs in order to fight 
the war on terror.
    And my belief is that's more of a management problem today 
than anything else for the FBI.
    Senator Wyden. Let me see if I can get one other question 
in.
    I want to ask my longtime friend, Tim Roemer.
    I think, Mr. Roemer, you're probably aware of the news 
reports indicating that the Director of the CIA has now ordered 
an internal investigation of the CIA inspector general. And I 
found this very troubling and going right to the heart, again, 
of the ability to do effective oversight.
    The inspectors general, of course, are a key source of 
information for the Congress, number one. Number two, when the 
administration fights--as Chairman Rockefeller has just noted--
to keep Congress in the dark, the inspector general, in effect, 
is the only independent oversight force out there. In other 
words, there isn't anybody else.
    So I have asked Director McConnell to order General Hayden 
to suspend this internal investigation. I think it is a 
chilling development. I've been very pleased by the comments 
I've seen of the Vice Chairman on this. I know the Chairman has 
been concerned about this.
    What is your assessment of something like this, which I 
believe is without precedent and in my view probably the 
inspector general of the CIA is just about as important as any 
inspector general that's out there? I'd be interested in your 
reaction to this.
    Mr. Roemer. Well, Senator, great to see you, and I applaud 
your good work on the Intelligence Committee.
    Going back to your question on the FBI, the IG at the FBI--
a man by the name of Glenn Fine--has done some exceptionally 
important work in overseeing some of the cultural problems, 
some of the management difficulties, some of the budget issues. 
And he has firmly focused the spotlight on those problems and 
exposed those problems, oftentimes to the chagrin of the FBI.
    Back to your bird-dogging question, you know, how do we get 
more IGs to be in positions at the CIA, at the DIA, at NSA, at 
the various 15 other intelligence agencies in addition to the 
CIA? How do we make sure they're empowered with that same kind 
of line-item authority and authority to go after issues and 
expose those issues?
    I think the Senate bill, if I'm not mistaken, in the 
authorization process is looking at possibly confirming some of 
those people, having some more oversight over who goes into 
those positions. That might be a good role to begin with.
    And it all comes back, I think, Senator--and you perform 
this role exceedingly well--it comes back to bird-dogging these 
issues and not letting up on them. Lee will be one of the first 
to tell you on the 9/11 Commission we had very, very long, 
heated debates about what to do with the FBI. Do we let them go 
along the reform path that they've gone on with Mr. Mueller, 
who's a very, very capable and decent guy? Do we carve out a 
new national security role, or do we stand up a brand new MI5 
agency? And many of us decided that standing up yet another new 
agency in addition to DNI and Department of Homeland Security 
was probably not the right way to go at this time.
    So we said it was up to Congress to oversee this carve-out 
within FBI, that they and the President had to make sure that 
these reforms took place, and if they didn't oversee them with 
strong oversight, these information management systems, this e-
mail system difficulty, the problems with the analysts will 
probably continue.
    So I would continue to have exposure to these problems. I 
would build support like the Burr-Bond-Feingold-Bayh bill. And 
I would continue to try to get the changes and use money to do 
it at the end of the day--shift money from one account to the 
other on the appropriations subcommittee if you can't find any 
other way to do it.
    Mr. Hamilton. Senator Wyden, every department head in 
government is nervous about the inspector general. And if a 
department head could investigate the inspector general, you 
will dramatically weaken the inspector general.
    Senator Wyden. Lee Hamilton knocks it out of the park once 
more. That's why I'm asking Director McConnell--and I see the 
Vice Chairman has come into the room as well. I was very 
appreciative of the Vice Chairman's comments when we learned 
that General Hayden was investigating the inspector general, 
Mr. Helgerson.
    And the Vice Chairman's comments on this very much echo 
mine and yours, so there's bipartisan interest in it.
    I thank you both for your public service.
    Thank you, Mr. Chairman.
    Chairman Rockefeller. Thank you very much, Senator Wyden.
    Senator Feinstein, to be followed by Senator Whitehouse, to 
be followed by Senator Snowe, unless Senator Burr comes back.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    And thank you, gentlemen, for coming back and back and back 
and giving us the benefit of your expertise.
    I want to just share with you what my experience and views 
are--that we are engaged in a system that by its very nature 
resists oversight. The administration feels they own the 
intelligence. We are the interlopers there. They would like to 
tell us as little as they possibly can. We are hamstrung, 
limited in staff, can't take notes home, can't take classified 
material home, can't really do much homework at all in the 
traditional sense.
    We spend two afternoons a week--the 60 hearings you've held 
about--hot spot briefings, not oversight.
    How do we do oversight? Well, let me suggest a way. One of 
them is, I believe we ought to have subcommittees. We ought to 
have a subcommittee on human intelligence which involves the 
CIA, the DIA, whatever it may be; on satellite intelligence; on 
the budget, and on special issues, whether those special issues 
are the culture of the FBI, whether it's rendition, whether 
it's covert action. And those subcommittees can hold their own 
meetings, be staffed separately, go out and take a look.
    We've got sixteen intelligence agencies, tens of billions 
of dollars. It is very difficult to do the kind of oversight on 
the premises--noticing, asking, investigating, writing--when 
you spend 2 days a week on hot spot briefings or various 
reports the Committee may be doing, or specific legislation the 
Committee might be considering.
    So I think more than anything else, if there were 
subcommittees that were literally empowered--now, I sit on all 
the crossover committees and have for a long time--Judiciary, 
Defense and this Committee. The defense intelligence budget, 
the black budget, is a very short budget. It's very difficult 
to zero in there.
    That, in my view, supplements the need to have the Budget 
Committee, which isn't just during the time the budget is being 
put together but is year around, that is talking with the DNI. 
The DNI is supposed to be able to do more than move the deck 
chairs on the Titanic. He can't do that under his present 
authority. Does he need the authority expanded? How should it 
be expanded? How should this budget best be controlled and 
contained?
    You know, the FIA program left many of us with a lot of 
scar tissue after many, many years of trying to do what had to 
be done. And this Committee took a position; the Defense 
Subcommittee had a different position. And I think it was 
Senator Bond that just went into this, and he's right: It's 
very hard.
    Now, if you had a group that was just on FIA as part of the 
satellite program day in, day out, year in, year out, that was 
intimately familiar with it, had all the notes, all the staff 
work, all the investigation done, knew where the points of 
failure were, we could have gotten to it a long time ago.
    So my view is the tension between the administration and 
the Congress--one owns; the other controls the purse strings.
    Lee, as you've said, theoretically we control the purse 
strings. When push comes to shove, that budget's going to get 
passed.
    So the work has to be done a long time before it gets 
passed. We have to have the time to share with all of our 
colleagues what we have found out that's between the budget 
lines. And we're not set up now to do that.
    So I have come to the conclusion, rightly or wrongly, that 
if I ever were in a position to make those changes, those are 
the changes I would make. And I would see that those committees 
reported regularly to the whole, that there be hard questions 
asked, that people be limited--this is another thing that 
happens. When people come and testify before you, they go on 
and on and on. And we're all under a time burden so, you know, 
if it's quick and if you can have that discussion around a 
table and go back and forth, you get something out of it. 
Otherwise, they are very practiced on how to move down a very 
wordy path, and it's difficult to break through that.
    That's all I wanted to say.
    If you have any comment, I'd love to hear it.
    Mr. Hamilton. I think it's probably not our role to try to 
tell you how best to organize the Committee to do your work. 
What you say about subcommittees and their ability to 
specialize certainly makes a lot of sense.
    I think the toughest job that you have in exercising 
oversight is to establish what your priorities are. I said in 
my testimony that the intelligence field is vast. And the 
intelligence community will brief you to death. They will come 
up with more reasons to brief you than you can imagine. They 
will brief you and brief you and brief you.
    And there may be appropriate briefings, but if you spend 
your whole time listening to briefings, you're probably not 
doing any thinking about what the priorities should be.
    I think you have to sit down and say OK, we can't cover the 
whole universe. But we've got to identify five, six, 10 
problems that we think are most important, and then you set the 
agenda. Don't let the intelligence community set your agenda. 
You set the agenda, and you tell them you come up here and tell 
us about this and not about that.
    Now, when you do that there are some risks involved because 
you may not select the right priorities. But I don't know any 
other way you can do it. You have to drive the agenda and not 
let the intelligence community drive your agenda.
    Mr. Roemer. Senator?
    Senator Feinstein. Yes.
    Mr. Roemer. I agree with what Congressman Hamilton has 
outlined and associate myself with your frustrations as a 
member of the committee.
    Oftentimes I think I felt sometimes on the Committee that 
you're drowning in budget hearings and then you're mesmerized 
by hot spot briefings. And it's one or the other. The Director 
will come up and tell you about what the latest threat is in 
North Africa or what the latest threat might be in the Middle 
East or some of the challenges going on in Southeast Asia.
    I think one of the areas to really focus on is to try to 
look--as Lee has said, establish priorities. I think one of 
those priorities should be to try to look more strategically at 
where the intelligence budget and agencies need to be rather 
than tactically going day to day. I think we get consumed on 
the tactics and not looking at the long-term strategy.
    We tried to do this oftentimes in bipartisan ways on the 
Committee. We tried to establish a language reserve corps to 
build the membership of Arabic and Urdu and foreign speakers in 
the intelligence community, and oftentimes we put money into 
that budget on the authorizing side, and lo and behold, it 
would never make it into the appropriations process.
    So I think, you know, looking strategically, establishing a 
priority to make a difference on rebuilding human intelligence 
and working in a bipartisan, bicameral way to see it through.
    Senator Feinstein. Thank you.
    Thank you, Mr. Chairman.
    Mr. Hamilton. Senator Feinstein, I'm sorry to take a little 
additional time, but I think at the end of the day you have to 
ask yourself how are we going to really be judged on this 
Committee? And how you're going to be judged in my view is how 
you perform with regard to Iran, Iraq, terrorism, nuclear 
proliferation, North Korea. That's what's important. That's 
where the national security interest lies at the moment.
    What kind of a job is the intelligence community--I don't 
know that I've listed them all, there may be some others--doing 
with regard to those big national security questions? That's 
what's really important to the American people.
    Senator Feinstein. That's a good point.
    Chairman Rockefeller. Before going to Senator Whitehouse, I 
just want to point out to the distinguished Chairman of the 9/
11 Commission that the intelligence community never comes up 
here to brief us on what they want to brief us about. They come 
up and they brief us only on what we want to be briefed about, 
and there is no exception to that.
    Mr. Hamilton. I applaud that.
    Chairman Rockefeller. The Senator from Rhode Island, 
Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Thank you, gentlemen, for coming yet again before us. I 
appreciate it.
    I'd like to talk with you for a minute about 
classification. We deal with classified information all the 
time. You are very familiar with dealing with classified 
information. It puts us at a very considerable institutional 
disadvantage.
    The executive branch classifies and to a large extent 
declassifies at will. In fact, many executive officials who we 
deal with just say something publicly and that's not a leak, 
that's not a security breach, that's a declassification. If we 
were to do it, there'd be FBI agents crawling around and 
looking at us and seeing if we'd committed treason. That's a 
very considerable disadvantage to be at.
    The classification function--or the classification system--
I think impedes oversight.
    Congressman Roemer, you mentioned a quote from Woodrow 
Wilson. I don't have the words in mind exactly, but I think you 
said the informing function is to be preferred over even the 
lawmaking function? Well, if something's classified, I may know 
it but I can't inform, so that function is totally disabled to 
the extent that that piece remains classified.
    And it also takes away a piece that exists in our regular 
oversight function which is that one Senator can usually make a 
difference by just going public with something, by just raising 
hell with something, by just being a thorn in somebody's side. 
Because you can't go public, it takes a majority of this 
Committee to get any action going, and I don't think that the 
intelligence community is unaware of that fact.
    I recognize that there is a significant security value to 
classifying national security information. On the other hand, 
there's a balance between that and the accountability value 
that oversight creates. And the judge in that balance is 
exclusively at this stage, it seems to me to be, the executive 
branch, which makes it, again, very, very one-sided.
    And my experience is that things are wildly over-
classified. I have read things on the front page of the New 
York Times, come into this Committee and read them in deeply 
classified documents. You know, thanks a bunch. That's really 
not very helpful. I already knew that.
    We have just been shown various legal opinions, and there 
are elements of them that I would like to talk about and I've 
asked the administration to allow me to talk about them. They 
are legal theories. You could take that legal theory and you 
could put it in any law journal in the country and it would 
have absolutely no meaning to anybody. It's totally without 
classification merit, and yet it is classified to the full 
depth of the underlying document out of which it comes.
    So once again, we are disabled. And I do not think that the 
administration is unaware of this imbalance and is unaware of 
the authority that this imbalance gives us with respect to this 
whole issue of classification.
    What structural recommendations might you have to enable us 
to fight back through this? Because the day-to-day tide of 
just, you know, they classify, they classify, now you start--
it's weeks trying to fight your way back to get three little 
phrases unclassified. It's a real uphill struggle, and I think 
it impedes--I feel it as a huge imposition on my ability to be 
an effective Senator and effective member of this Committee.
    Mr. Hamilton. Well, you've learned a lot more about the 
classification system early on than I did. It took me a long 
time to figure out how you get jacked around because of the 
classification system.
    He who controls information has the power in government. 
And the executive branch knows they control the classification 
process, that the Congress can't do very much about it, and it 
is an enormous tool in their hands.
    I think we classify way too much information, and we 
declassify way too little. It's a serious problem. We are 
stacking up warehouses full of classified information day after 
day after day, and it's hugely expensive to classify all that 
information.
    Now, one of the problems is the incentives. Certain 
officers in the U.S. Government are given the authority to 
declassify--Secretary of State. Well, the Secretary of State 
doesn't sit around and say this document is secret and this 
document is not secret. She delegates that responsibility. She 
delegates it way down the line, and the incentives work so that 
it is safe to classify when in doubt. And so they sit there and 
they stamp everything classified. And we just keep piling it 
up.
    Senator Whitehouse. If I might add, Congressman Hamilton, 
unless and until it becomes useful----
    Mr. Hamilton. To them.
    Senator Whitehouse.--to the administration's rhetoric----
    Mr. Hamilton. That's correct.
    Senator Whitehouse.--to declassify their side of the 
argument, while leaving your side of the argument classified.
    Mr. Hamilton. That's right. And you're put at a huge 
disadvantage because of that.
    I don't know--there is a way. I think I remember that there 
is a way for the Congress to declassify information, but as I 
recall, it has never been used. It takes a----
    Senator Whitehouse. Act of Congress?
    Mr. Hamilton.--very complex process. It takes a vote, I 
think, in both houses and it just has never been used.
    I think the whole area of classification needs examination 
and a new framework has to be developed to deal with it or you 
are going to be continually at this disadvantage. I don't have 
any doubt in my mind the executive branch--not just this 
administration, but any administration--uses it to their 
advantage time and time again, puts you at a disadvantage, and 
there's not very much you can do about it.
    Mr. Roemer. Senator, I just want to say that on the 9/11 
Commission, we made two very, very strong recommendations to 
your point.
    One was that there is a gross over-classification of 
information and second, there's an underutilization of open 
sources, and we recommended addressing both, that working with 
Congress and working with other entities in the executive 
branch and IGs that there be a way of declassifying this 
information and doing it in an orderly fashion, in a regular 
fashion, viewing that information and getting it out.
    And then the second part was that there's a lot of open-
source information that we get access to that we don't utilize 
appropriately enough and quickly enough in the intelligence 
community.
    Senator Whitehouse. Thank you, Mr. Chairman.
    Chairman Rockefeller. Thank you, Senator Whitehouse.
    Senator Snowe?
    Senator Snowe. Thank you, Mr. Chairman.
    I want to welcome both of you here today and appreciate 
your commitment and dedication and perseverance and persistence 
in advocating your views and following up as you have so 
consistently before this Committee and others since your 
service--yeoman service--on the 9/11 Commission. So we really 
appreciate that.
    I know you identify with all of our frustrations in trying 
to change the institutions. You know, it faces many challenges 
and impediments, without question. And frankly, it was 
disappointing that we only received 23 votes on the question of 
consolidating the intelligence in both the authorizing and 
Appropriations Committee. I mean, it's just--I was one of the 
23 because I believe that both the House and Senate are 
underestimating the challenges that we face.
    And also our ability to effect change within the 
intelligence community is through, as you have indicated time 
and again, through the appropriations process. I mean, we saw 
that underscored in the hearing that was held here recently 
regarding FBI reform which is, you know, proceeding at a 
snail's pace. They're resisting efforts to elevate intelligence 
analysts to the level of special agents, as we've learned and 
what Senator Wyden referred to as well in the number of agents.
    So we still have some critical challenges and we see, based 
on the NIE that was released in July, that we have a persistent 
evolving terrorist threat facing the homeland. Al-Qa'ida has 
regenerated key elements of attacking our homeland and their 
capabilities. So we're facing some enormous challenges.
    I know, Congressman Hamilton, you mentioned in your op-ed 
piece with co-chair Tom Kean in the Washington Post several 
months ago that we still lack a sense of urgency in the face of 
grave danger, and you also indicated that we still lack focus. 
Could you describe what you mean by a lack of sense of urgency?
    Mr. Hamilton. I think a lot of things have been done in the 
government with regard to protecting the homeland that are 
helpful and good.
    I believe and I know Tom Kean believes that we're safer 
today than we were at 9/11. The amount of money that we've 
spent, the procedures we've put in place, there may be a 
question of cost effectiveness in some of those, but overall a 
lot of good things have been done.
    All of us are aware of agencies and departments that are 
expending very large efforts and resources to protect the 
American people.
    Having said all of that, I think both Tom Kean and I felt 
that there is a lack of urgency, and by that I think we meant 
largely, as you visit these various offices and agencies and 
you hear what they're doing and how much they're doing, you 
kind of get a sense of business as usual. And we believed, as 
we stated, that the threat of terrorism is genuine, is real, 
that they're plotting out there to get us and there's been no 
diminishment in that intent. We have questions, of course, 
about their capabilities.
    You and I would understand, I mean, Government is dealing 
with so many problems that kind of press upon you and distract 
you, the inbox is always full for everybody. Tom and I are 
trying to say look, this threat is genuine, it's real, and it 
is urgent and it is not a matter for business as usual. I think 
that's what our attitude was.
    Mr. Roemer. Senator, I'd just add on to that by saying 
that, as you noted in your comments, al-Qa'ida is changing 
every day. They're recruiting on the Internet; they're going 
into the remotest places on the Earth to gain a bigger and 
quicker following. They can strike with airplanes or other 
weapons and cause horrific damage to our country, either here 
or abroad. They're entrepreneurial. They are adapting the 
forces of globalization to their cause.
    And that sense of urgency does not seem to be reflected in 
some of the activities that we're engaged in to take on that 
very rapidly changing threat.
    Senator Snowe. No, I agree.
    I think it's like we've sort of resorted and reverted back 
to the times where you just sort of protect your jurisdiction 
and you consolidate all the bureaucratic resistance. And we're 
facing it time and again.
    You know, one of my recommendations was to create a 
Department of Homeland Security inspector general, you know, 
department-wide. And of course that's met with great resistance 
by the department and the administration. Again, we're just 
facing the same bureaucratic hurdles and inertia that overtakes 
our ability to effect change. And it's what you've indicated.
    And what's even more disturbing is that your commission 
made this one of the top recommendations. It was one of the 
most significant recommendations among all the recommendations, 
and we can only manage to get 23 votes for it in the U.S. 
Senate. It really is disturbing because I think the more 
disparate these functions become--as you say, dysfunctional and 
diffused--the less likely that we have the capacity to oversee 
those areas in which it's so important, because we can't 
leverage that change because of the appropriations process.
    And that is the bottom line. That is the reality. And 
unfortunately we're going to have to find ways in which to 
overcome that because I think that still has to be the driving 
force and the ambition, is to change the process so that we can 
fuse these two responsibilities.
    In 2005 you gave, on this recommendation you gave a grade 
of D on congressional oversight. Would you still agree that 
it's a D?
    Mr. Hamilton. What's that?
    Senator Snowe. In 2005, Congress was given a D.
    Mr. Roemer. We gave them a D in 2005.
    Mr. Hamilton. To whom?
    Mr. Roemer. To the Congress.
    Senator Snowe. On intelligence oversight.
    Mr. Roemer. You know, as we noted, Senator, I think that a 
D at that time reflected very little progress and no positive 
steps forward.
    I think, not speaking for Congressman Hamilton but as I 
acknowledged in my opening statement, there have been some 
steps forward. The House has created this intelligence panel. 
There have been steps forward on the Senate side with an 
investigative and audit subcommittee.
    But I still think that it's--in my opinion, it would still 
be a D- plus. It's something that is not going hard enough. And 
when Congress is pointing its finger everywhere to the 
executive branch--the FBI's not doing enough, the CIA needs to 
rebuild human intelligence, the Department of Homeland Security 
is not working well enough--and they fail to do the one 
requirement in their book, that's not a good reflection on 
Congress.
    Mr. Hamilton. I agree.
    Senator Snowe. Says it all. Thank you.
    Thank you both for your service. Thank you.
    Mr. Hamilton. Thank you.
    Chairman Rockefeller. Thank you, Senator Snowe.
    Senator Feingold?
    Senator Feingold. Thank you, Mr. Chairman, for holding the 
hearing.
    It really is a pleasure to hear from these two very 
distinguished witnesses on really the most important issue of 
our time, so I appreciate everything you've done.
    As the 9/11 Commission concluded and as our witnesses have 
reiterated today, intelligence reform, which is so critical to 
protecting our country, depends on effective congressional 
oversight. I supported the commission's recommendation to give 
appropriations authority over the intelligence budget to the 
Intelligence Committees when it was first proposed in 2004, and 
I continue to support it today.
    In recent years, however, it has become overwhelmingly 
clear that the greatest impediment to effective congressional 
oversight of intelligence is this administration's consistent 
and really almost unbending contempt for Congress's 
constitutional role in this area.
    A full account of the administration's actions begins, of 
course, with its secret violations of the laws passed by 
Congress, specifically the Foreign Intelligence Surveillance 
Act, and despite the outcry prompted by its illegal, 
warrantless wiretapping program, the administration still won't 
commit to abide by the laws of this country, issuing so-called 
signing statements as statutes become law and refusing to rule 
out future assertions of the President's supposed authority to 
disregard FISA.
    Recently the administration has even stated in writing that 
it intends to simply ignore Congress's budgetary oversight of a 
classified intelligence program. The administration has also 
repeatedly refused to brief this Committee on important 
intelligence matters as is required by law. The country is by 
now familiar with the administration's failure to inform the 
Committee about the warrantless wiretapping program for 5 years 
before the program was revealed and acknowledged and then for 
months thereafter.
    But this problem continues. We know that the administration 
continues to abuse the so-called gang of eight provision by 
hiding important intelligence matters from the full Committee. 
What we don't know is the full extent of this abuse.
    The list of reports and other information sought by the 
Committee and denied by the administration is extensive and 
much of it classified. The administration's efforts to deny 
Congress information even extends to the third branch of 
government, the FISA court, whose interpretations of the law 
Congress needs to conduct oversight and to consider new 
legislation. Imagine if the administration sought to keep from 
Congress Supreme Court decisions related to the legality and 
constitutionality of the laws passed by Congress and of the 
Government's actions. In the area of intelligence surveillance, 
it is the FISA court that makes these decisions, and the 
administration's attempts to hide them from Congress, even as 
it demands that new FISA legislation be passed, is 
unacceptable.
    The public record of the administration's contempt for 
congressional oversight of intelligence is lengthy. The 
administration's threat to veto the current intelligence 
authorization bill is based almost completely on Congress's 
efforts to improve oversight. The administration opposes 
efforts to obtain intelligence-related documents generally and 
with regard to detention and interrogation. It opposes 
congressional efforts to learn about how the administration is 
interpreting the Detainee Treatment Act and it opposes a Senate 
confirmation of important leadership positions in the 
intelligence community.
    And this list is only a partial indication of this 
administration's contempt for Congress's constitutional 
responsibility to conduct oversight of intelligence. The 
administration's actions not only violate our constitutional 
principles and our system of checks and balances, they have 
undermined our national security.
    As our distinguished witnesses have stated clearly and 
consistently, congressional oversight is critical if we're to 
have an effective intelligence community that defends our 
national interests as well as our laws, our Constitution, and 
our principles as a Nation.
    Now you both said, I understand, that Congress should use 
the power of the purse to compel information from the 
administration. What would you advise Congress to do if the 
administration still refuses to provide the information and 
simply ignores Congress's efforts to exert its power of the 
purse?
    Mr. Hamilton. I'd withhold the money.
    Senator Feingold. Mr. Roemer?
    Mr. Roemer. I agree with Mr. Hamilton, Senator.
    I think, as you stated, the executive branch is the 
greatest impediment to Congress's role in oversight. I would 
say that the battle is not so much with waterboarding per se or 
wiretapping per se or Abu Ghurayb per se or secret prisons per 
se or American rights per se. It is for Congress to strengthen 
its ability to discover these things and debate these things 
where appropriate because of their difficulty overseeing them 
and getting access to these programs with the executive branch.
    It's incumbent upon Congress to exert its power and 
authority here. There are actions you can take like creating 
this Committee with dual appropriations and authorizing 
capabilities that will then have the power to say to the 
executive branch, the money's not coming with your request. 
We're not having you run around the authorizes. We have the 
information. We know what we need, and we have the power of the 
purse to withhold the money. And it's done within one 
committee.
    Senator Feingold. Mr. Chairman, I think that's an excellent 
note to conclude on. Thank you.
    Chairman Rockefeller. Thank you very much, Senator 
Feingold.
    And I want to thank both of you very much. It's been a long 
afternoon for you, but I think a very instructive one for us 
because, as you did in your reports, you've thrown us a 
challenge. The challenges aren't easy to solve, and yet you're 
very firm, and that in and of itself is a part of helping us to 
do a better job because we respect you and your commission so 
much.
    Mr. Roemer. Thank you, Mr. Chairman.
    Chairman Rockefeller. Now we've also totally alienated the 
two gentlemen who are going to follow you in the second panel, 
but we're going to get right to them.
    So we thank you.
    Mr. Roemer. Thank you.
    Vice Chairman Bond. Thank you very much, gentlemen. It's 
been very informative and very helpful.
    Chairman Rockefeller. The Chairman of the Intelligence 
Committee apologizes for referring to the next panel as two 
men. In fact, Professor Amy Zegart from UCLA and Mr. James 
Saturno from the Congressional Research Service, I personally 
apologize to you for not--I don't ultimately apologize for 
taking so long on the first panel because it was very basic 
stuff and you understood that. But I hate putting you at a 
situation where not only do you not have the full committee 
before you, but you have the best part of it before you, and we 
want very much to hear what you say, so you proceed.
    Dr. Zegart, why don't we start with you?

        STATEMENT OF AMY B. ZEGART, ASSOCIATE PROFESSOR,

    DEPARTMENT OF PUBLIC POLICY, SCHOOL OF PUBLIC AFFAIRS, 
             UNIVERSITY OF CALIFORNIA, LOS ANGELES

    Dr. Zegart. Thank you, Mr. Chairman, Mr. Vice Chairman.
    Chairman Rockefeller. And pull that right up real close.
    Dr. Zegart. There we go. I'm a Z, so I'm used to waiting 
for a while to go, so not a problem for me.
    Mr. Chairman, Mr. Vice Chairman, distinguished Committee, 
it's an honor to be here today to talk about this very 
important issue of congressional oversight of U.S. 
intelligence. Let me just thank you two in particular and the 
rest of the Committee not only for holding this hearing but for 
holding it in open session. I fully appreciate that security 
considerations often require closed sessions, but there is no 
more powerful force for change than an engaged American public.
    As you know, I'm an associate professor at UCLA. For more 
than a decade, I've been researching organizational 
deficiencies in U.S. intelligence agencies. I've also been a 
consumer of intelligence on the National Security Council staff 
and I worked in the private sector, which has its own 
adaptation challenges, as a strategic consultant at McKinsey & 
Company.
    Mr. Chairman, when I last appeared before this Committee it 
was August of 2004. The 9/11 Commission had just finished its 
report and intelligence reform was in the air. It's now 3 years 
later, 6 years after the worst terrorist attacks in our 
Nation's history, and intelligence reform is progressing in a 
halting and disappointing fashion.
    Congressional oversight, as we've heard this afternoon, is 
vital to American national security, but it is broken and it 
has been broken for years. Unless substantial changes are made 
to the current system, intelligence reforms will fail.
    My remarks this afternoon will cover briefly--which is hard 
for a professor but I will try to be brief--three points: why 
oversight matters, enduring problems and what we can do about 
them.
    The bottom line is that these organizational weaknesses in 
oversight and possible remedies to address them have been well 
known for quite a long time, and so the challenge we face now 
lies not so much in inventing new ideas but in implementing the 
ones that we already know.
    Mr. Chairman, as this Committee has discussed this 
afternoon, U.S. intelligence agencies have never been more 
important. The spread of weapons of mass destruction, the 
information revolution, the rise of transnational terrorist 
groups have created an unprecedented asymmetric threat 
environment. For the first time in history, great power does 
not bring security. It is the weak who threaten the strong, and 
it is intelligence, not sheer military might, which provides 
our first and last line of defense in a way that it has never 
been before.
    Oversight is crucial to our intelligence system because it 
guards against two dangers. The first is that our intelligence 
agencies will become too powerful, violating the laws and 
liberties and values that we Americans hold dear. The second 
danger is that intelligence agencies will become too weak, too 
weak to protect American lives and American vital interests.
    Good oversight ensures that our agencies get the resources 
they need, provides strategic guidance to deploy those 
resources more effectively, and proactively evaluates what's 
working and what isn't before disaster strikes so that our 
intelligence agencies can adjust and improve. And I want to 
applaud this Committee for the FBI oversight hearings that 
occurred just a couple weeks ago. That is a prime example, an 
extraordinary example, of exactly that kind of proactive 
oversight function.
    Today, U.S. intelligence agencies are confronting 
substantial challenges in both areas, but the executive branch 
cannot and must not and should not go it alone. Ensuring that 
our agencies are powerful enough but not too powerful requires 
vigorous and bipartisan oversight by Congress.
    Let me turn briefly to enduring problems.
    Congressional oversight of intelligence has always been 
problematic. For the first 30 years of the CIA's existence, 
oversight consisted of a few senior legislators not wanting to 
ask questions because they didn't want to hear the answers. 
Between 1947 and 1974, there were more than 150 legislative 
proposals to reform this system and all of them failed, most of 
them by overwhelming votes. It took revelations that 
intelligence agencies were assassinating foreign leaders and 
spying on Americans before Congress established the select 
committees. These Committees, as you know, have been a 
substantial improvement, but deficiencies have persisted.
    My research found that between 1991 and 2001, there were 12 
major unclassified studies that examined U.S. intelligence and 
counterterrorism capabilities. They issued more than 500 
recommendations for reform. Most of these reports found 
congressional oversight to be a big part of the problem. 
Recommendations--and this is before 9/11 in the decade 
preceding 9/11--recommendations included: streamlining the 
splintered and overlapping committee jurisdictions in 
intelligence and homeland security; combining authorizing and 
appropriations powers in a range of national security 
committees, including intelligence; and eliminating term limits 
on the Intelligence Committees to enhance member expertise.
    None of these recommendations was adopted before 9/11. In 
fact, the only organization in our intelligence system that 
failed to implement a single reform from all these reports 
wasn't the CIA, wasn't the National Security Agency or the FBI; 
it was the U.S. Congress.
    Despite the 9/11 Commission's warning that congressional 
oversight was dysfunctional and vital, two key problems 
remain--too much fragmentation and not enough expertise. As you 
know well, oversight is fragmented and uncoordinated against a 
number of committees. I know Congressman Hamilton and Governor 
Kean wrote in the Washington Post that the Department of 
Homeland Security still reports to 86 different subcommittees 
and committees. A system that is splintered is naturally prone 
to error and inefficiency. Individual programs, even crucial 
ones, can and do fall between the cracks because oversight can 
always be seen as somebody else's job.
    This is exactly what I found in the late 1990s when no 
congressional committee undertook a serious examination of the 
FBI's struggling counterterrorism reform efforts. Why did this 
happen? In large part, because the Intelligence Committee 
thought it was a Judiciary Committee issue, and the Judiciary 
Committee thought it belonged in Intelligence. Fragmented 
jurisdictions also make it unlikely that any one panel will 
have an integrated view of an agency's activities or the trade-
offs involved. Multiple committees are also more likely to give 
contradictory guidance and overload managers with too many 
uncoordinated hearings and reporting requirements. And of 
course, as we've heard this afternoon, savvy executive branch 
officials can and do play the committees off one another.
    This split between the intelligence authorization and 
appropriations committees has allowed executive branch agency 
officials to game the system. The press has public reported 
about how this Committee in recent years has repeatedly tried 
to kill expensive and, in the view of the Committee, 
unnecessary and ineffective satellite programs only to have 
other committees reverse those decisions after pressure from 
the Pentagon and other allies. One intelligence official called 
this kind of bureaucratic maneuvering the two-parent approach: 
If mom says no, go to dad. Separating authorizations from 
appropriations is a long-standing and revered congressional 
practice, but this division in intelligence has become 
increasingly unworkable.
    Let me talk briefly about expertise.
    As you know, intelligence activities are highly complex and 
technical and shrouded in secrecy more than any other activity 
of our Government. This is unique among policy issues. In 
intelligence, there is no natural public constituency, no set 
of interest groups, no public interest groups that have a 
capability of gathering independent information, of alerting 
the public or holding officials' feet to the fire. These 
factors make the intelligence oversight learning curve 
especially high, members' oversight experience especially 
valuable, and staff capabilities essential. Unless overseers 
know what to ask, they will not get the information they need 
to make intelligence agencies effective.
    The Senate took the very important step in the 108th 
Congress of ending term limits for this Committee, but 
experience gaps between this Committee and other committees 
remain striking in terms of continuous service to the 
Committee.
    And notably, the House Intelligence Committee still has 
term limits for its members, even though the 9/11 Commission 
and a number of other blue ribbon studies during the 1990s 
recommended abolishing them.
    Staff capabilities are also critical and in need of 
augmentation. The Government Accountability Office currently 
lacks full authority to investigate all components of the 
intelligence community, particularly the CIA. Some have 
suggested bolstering oversight committee staff capabilities by 
creating a new congressional support agency with nonpartisan 
cleared staff that could provide additional classified and 
unclassified analyses to Congress. And the inspector general 
system offers an underutilized mechanism to provide 
information. The Senate's 2008 authorization bill includes 
important improvements to the inspector general system along 
these lines, and it is essential that these improvements be 
enacted.
    What can we do? All reforms, as we've discussed today, 
necessarily involve tradeoffs, but the history of intelligence 
reform I believe suggests two guiding principles for reform. 
The first, as I mentioned at the beginning, is to focus on 
implementation rather than developing new ideas. For 60 years, 
turf and politics have stacked the deck against robust 
intelligence oversight. The 9/11 Commission noted that few 
things are more difficult than rearranging congressional 
committee jurisdictions. And, as this Committee knows well, 
overseeing intelligence is a hard and largely thankless task 
because it takes precious time away from issues that 
constituents back home care about more. Very few voters care 
about the nitty gritty aspects of the FBI's analyst program, as 
this Committee examined a couple weeks ago. No intelligence 
reform ever won a landslide election. But turf and politics 
must be overcome.
    Mr. Chairman, I was struck that the Implementing the 9/11 
Commission Recommendations Act, passed last summer, tackled 
just about every aspect of the 9/11 Commission report except 
congressional oversight reform. Congress can do better. 
American lives depend on it. This hearing is a crucial step 
forward, but continued success requires continued leadership 
and a relentless focus on implementation.
    The second guiding principle is to be careful to pick the 
low- hanging fruit. Dramatic improvements I believe do require 
dramatic changes. Nevertheless, some important improvements can 
be accomplished without new legislation, without turf wars, 
without dramatic rule modifications. This low-hanging fruit 
involves some of the steps that this Committee has already 
taken to make the most of the existing oversight activities 
that are already being conducted, and they include: holding 
regular staff meetings across the relevant committees, both 
within the Senate and across the Senate and the House to 
coordinate hearings and other oversight activities; instituting 
periodic leadership meetings along the same lines; and 
integrating technology systems so that various intelligence 
oversight staff with the appropriate clearances can share 
information more easily.
    Mr. Chairman, I thank you for this great honor to be here 
today and look forward to answering your questions.
    [The prepared statement of Dr. Zegart follows:]


          statement of dr. amy b. zegart, associate professor,


 department of public policy, school of public affairs, university of 
                        california, los angeles


    Mr. Chairman, Mr. Vice Chairman, distinguished Members of 
the Select Committee on Intelligence, it is an honor to appear 
before you today to discuss congressional oversight of U.S. 
intelligence agencies.
    My name is Amy Zegart. I am an Associate Professor in the 
School of Public Affairs at the University of California, Los 
Angeles (UCLA).
    For more than a decade, I have been researching and writing 
about organizational problems in U.S. intelligence agencies. My 
newest book, Spying Blind (Princeton University Press, 2007), 
examines why the CIA and FBI failed to adapt to the rise of 
terrorism after the cold war. Before my academic career, I 
served on the National Security Council staff and advised 
Fortune 500 companies about organizational effectiveness as a 
McKinsey & Company management consultant.
    When I last appeared before this committee in August of 
2004, the 9/11 Commission had just released its report and 
intelligence reform was in the air. Three years later, and 6 
years after the worst terrorist attacks in American history, 
progress has been halting and disappointing.
    Congressional oversight of intelligence is vital to 
American national security. And it has been broken for years. 
Without substantial changes to the current system, intelligence 
reforms will fail.
    Mr. Chairman, my remarks cover three main points:
    <bullet>  Why oversight matters
    <bullet>  Enduring problems
    <bullet>  What can be done
    The bottom line: Oversight weaknesses and possible remedies 
have been known for a long time. The critical challenge now is 
not so much inventing new ideas, but implementing the ones we 
already have.


                         why oversight matters


    U.S. Intelligence agencies have never been more important. 
The spread of weapons of mass destruction, the information 
revolution, and the rise of transnational terrorist networks 
have created an unprecedented asymmetric threat environment. 
For the first time in history, great power does not bring 
security; it is the weak that threaten the strong.
    As CIA Director Michael Hayden recently noted, during the 
cold war the Soviet Union was easy to find but its most deadly 
forces--tanks, ICBMs, and troops--were hard to kill. Today the 
situation is reversed: our principal terrorist enemies are easy 
to kill but hard to find.
    Successful defense requires penetrating and stopping the 
adversary before he ever gets to his target battlefield, not 
defeating him with overwhelming force once the battle begins. 
More than ever before, intelligence has become our nation's 
first and last line of defense.
    Robust congressional oversight is crucial to an effective 
intelligence system because it guards against two dangers. The 
first is that intelligence agencies will become too powerful, 
violating the liberties, laws, and values that Americans hold 
dear. The second danger is that intelligence agencies will 
become too weak to keep Americans safe. Good congressional 
oversight ensures that intelligence agencies get the resources 
they need, provides strategic guidance to deploy those 
resources effectively, and proactively evaluates what works and 
what doesn't so that agencies can improve and adjust their 
collection and analysis before disaster strikes.
    Today, U.S. intelligence agencies are confronting 
substantial challenges in both areas. Many both inside and 
outside the Intelligence Community are gravely concerned that 
intelligence agencies are overreaching--engaging in warrant-
less surveillance programs and interrogation methods that are 
legally questionable and morally troubling. Many also worry 
that intelligence agencies are under-performing, that they are 
not adapting fast enough to the demands of a post-9/11 world.
    The executive branch cannot, should not, and must not go it 
alone.
    Ensuring that U.S. intelligence agencies are powerful 
enough but not too powerful requires nonpartisan and vigorous 
oversight by Congress.


                           enduring problems


    Congressional oversight of intelligence has always been 
problematic.
    For the first thirty years of the CIA's existence, 
oversight consisted of a few senior legislators not asking 
questions and not wanting answers. As Senator Leverett 
Saltonstall (R-Mass.) noted in 1956, ``It is not a question of 
reluctance on the part of the CIA officials to speak to us. . . 
.Instead, it is a question of our reluctance, if you will, to 
seek information and knowledge on subjects which I personally, 
as a Member of Congress and as a citizen, would rather not 
have.'' Between 1947 and 1974, more than 150 legislative 
proposals to reform this oversight system were defeated, nearly 
all of them by overwhelming majorities. It took revelations 
that intelligence agencies were assassinating foreign leaders 
and spying on Americans before Congress finally established the 
Select Intelligence Committees.
    Although the committees were a substantial improvement, 
deficiencies persisted. Perhaps nowhere was the system's 
weakness more apparent than in the failed efforts to overhaul 
executive branch intelligence agencies before 9/11.
    In 1992 and again in 1996, this committee and its House 
counterpart pressed for sweeping intelligence reforms. Both 
times, bills were torpedoed by the Defense Department and 
members of the armed services committees, who stood to lose 
their own turf and power.
    My research found that between 1991 and 2001, twelve major 
unclassified studies examined U.S intelligence and counter-
terrorism capabilities, issuing more than 500 recommendations 
for reform. Most of the reports found congressional oversight 
to be a big part of the problem. Recommendations included 
streamlining the splintered and overlapping committee 
jurisdictions in intelligence and homeland security, combining 
intelligence authorizing and appropriating powers, and ending 
intelligence committee term limits to enhance the expertise of 
members. None of these recommendations were adopted before 9/
11. In fact, the only organization in the U.S. intelligence 
system that failed to implement a single reform from all these 
reports wasn't the CIA, NSA, or FBI. It was Congress.
    Despite the 9/11 Commission's dire warning that 
congressional oversight was ``dysfunctional'' and vital to 
intelligence reform, two key problems remain: too much 
fragmentation and not enough expertise.
    Fragmented Jurisdictions: Creating a System Prone to Error 
and Inefficiency As you know well, intelligence oversight is 
fragmented and uncoordinated across too many committees. 
Governor Kean and Congressman Hamilton have noted that even 
now, the Department of Homeland Security reports to 86 
different congressional committees and subcommittees. While 
this may be the extreme case, other intelligence agencies also 
face multiple oversight committees--chief among them, 
judiciary, armed services, and appropriations.
    A system that splintered is naturally prone to error and 
inefficiency.
    Individual programs--even crucial ones--an and do fall 
between the cracks because oversight can always be seen as 
somebody else's job.
    In the late 1990's, for example, no congressional committee 
undertook a serious examination of the FBI's struggling 
counterterrorism reform efforts. Why? In large part, because 
intelligence committees thought it was a judiciary issue and 
the judiciary committees thought it belonged in intelligence.
    What's more, fragmented jurisdictions make it unlikely that 
any one panel will have an integrated view of an agency's 
activities and the appropriate cross-programmatic tradeoffs 
involved. Multiple committees are also more likely to give 
contradictory guidance and overload managers with too many 
uncoordinated hearings and reporting requirements. And savvy 
executive branch officials can play committees off one another.
    In particular, the split between the intelligence 
authorization and appropriations committees has allowed 
executive branch agencies to game the system. As the press has 
publicly reported, this committee in recent years has 
repeatedly tried to kill expensive satellite programs only to 
have other committees reverse decisions after pressure from the 
Pentagon and other allies. One intelligence official called 
this kind of bureaucratic maneuvering the ``Two-parent 
approach: If mom says no, go to dad.''
    Separating authorizations from appropriations is a 
longstanding and revered congressional practice. But in the 
realm of intelligence, this division has become increasingly 
unworkable.


                          not enough expertise


    Intelligence activities are complex, highly technical, and 
shrouded in secrecy. Unlike all other policy issues, 
intelligence has no natural interest group constituencies 
capable of gathering independent information, alerting the 
public, or holding elected officials' feet to the fire.
    These factors make the intelligence oversight learning 
curve especially high, Members' oversight service 
extraordinarily valuable, and staff capabilities essential. 
Unless overseers know what to ask, they won't get the 
information they need to make intelligence agencies effective.
    Although the Senate took the very important step in the 
108th Congress of ending term limits for this committee, the 
experience differential between the SSCI and other Senate 
committees remains striking. For example, Senator Warner has 
served on the armed services committee for 9 years. Chairman 
Levin has served for 28 years. If my calculations are correct, 
that's four times longer than the longest-serving member of 
this committee. Notably, the House intelligence committee still 
has term limits for its members, even though the 9/11 
Commission and a number of other studies during the 1990's 
recommended abolishing them.
    Staff capabilities are also critical and in need of 
augmentation. The Government Accountability Office (GAO) 
currently lacks full authority to investigate all components of 
the Intelligence Community, particularly the CIA. Others have 
suggested bolstering oversight committee staff by creating a 
new congressional support agency with nonpartisan, cleared 
staff that could provide both classified and unclassified 
analyses of important oversight issues to Congress. The 
Inspector General system also offers an under-utilized 
mechanism to provide nonpartisan, independent information to 
Congress about waste, fraud, and abuse within and, importantly, 
across intelligence agencies.


                            what can be done


    All reforms necessarily involve tradeoffs; there is no one 
ideal solution. The history of intelligence reform, however, 
suggests two guiding principles for improving congressional 
oversight.

    Principle #1: Focus less on developing new ideas and more 
on implementing the ones we already have.
    For sixty years, turf and politics have stacked the deck 
against robust intelligence oversight. As the 9/11 Commission 
noted, few things are more difficult than rearranging committee 
jurisdictions.
    And as this committee knows well, overseeing U.S. 
intelligence agencies has always been a hard and largely 
thankless task that takes precious time away from all the other 
issues that concern and benefit constituents more. Few voters 
care about the nitty-gritty aspects of the FBI's analyst 
program or the number of Pashto speakers at the CIA.
    The issues are often complicated and the effects on the 
daily lives of Americans are usually indirect and unseen. No 
intelligence reform ever won a landslide election.
    But turf and politics must be overcome. The ``Implementing 
the 9/11 Commission Recommendations Act'' passed last summer 
tackled just about everything except congressional oversight. 
Congress can do better. American lives depend on it.
    This hearing is an important step forward. But success will 
require continued leadership, commitment, bipartisanship, and a 
relentless focus on implementation.

    Principle #2: Pick the low-hanging fruit.
    Dramatic improvements require dramatic changes. 
Nevertheless, some important improvements can be accomplished 
without new legislation, turf wars, or rule modifications. This 
``low-hanging fruit'' involves improving informal coordination 
and technical capabilities to make the most of existing 
oversight activities. These include:
    <bullet>  Holding regular staff meetings across relevant 
Senate committees and between House and Senate intelligence 
committees to better coordinate hearing schedules and 
activities.
    <bullet>  Instituting periodic leadership meetings of the 
House and Senate intelligence committees to share information, 
improve coordination, and enhance strategic planning.
    <bullet>  Integrating technology systems so that various 
intelligence oversight staff with appropriate clearances can 
share information more easily.
    Mr. Chairman, I'd like to conclude by thanking this 
committee not only for holding this hearing to address the 
critical issue of intelligence oversight, but for doing so in 
open session.
    While I fully realize that security considerations often 
require closed sessions, there is no more powerful force for 
change than an engaged public.
    Thank you.

    Chairman Rockefeller. Thank you, Dr. Zegart.
    Mr. Saturno.

      STATEMENT OF JAMES V. SATURNO, SPECIALIST, CONGRESS

 AND THE LEGISLATIVE PROCESS, CONGRESSIONAL RESEARCH SERVICE, 
                      LIBRARY OF CONGRESS

    Mr. Saturno. Thank you. First of all, I want to thank the 
Chairman and the Vice Chairman and the other members of this 
Committee for the invitation to appear today and to talk about 
one aspect of the 9/11 Commission's recommendations, namely the 
recommendation concerning the separation of authorization and 
appropriations, particularly the historical record regarding 
their relationship. It's a history lesson but one that I hope 
that the Committee will find useful.
    The U.S. Constitution does not establish a specific budget 
process. The power of the purse is assigned to Congress in 
Article I, section 9, which states simply that, ``No money 
shall be drawn from the Treasury but in consequence of 
appropriations made by law.'' How this authority is put into 
practice, however, has naturally been the subject of periodic 
congressional debate.
    Historically, Congress has implemented this power through a 
two-step process--first, establishing agencies and programs, 
and then funding them in separate legislation. This separation 
is a construct of congressional rules and practices and is 
neither mandated nor suggested in the Constitution. Instead, it 
has been developed and formalized over time pursuant to the 
constitutional authority in Article I, section 5, for each 
chamber to determine the rules of its proceedings. This power 
permits Congress to enforce, modify, waive, repeal or ignore 
its rules as it sees fit. The result has been an evolving 
relationship and one that is malleable enough to meet the 
changing needs of Congress.
    Legislation that establishes, continues or modifies a 
Government agency activity or program is today termed an 
authorization. While authorizations form an essential part of 
the Federal budgeting process, by themselves they don't permit 
funds to be obligated, although they are typically enacted with 
the idea that subsequent legislation will provide funds. 
Instead, they simply give direction, both to congressional 
appropriators and to the agency.
    Agencies or programs are typically affected by more than 
one authorizing statute. One law may set up an agency and 
establish its underlying mission, while another may establish 
specific programs to be administered by the agency, another may 
provide specific guidelines for agency organization and yet 
another may provide explicit authorization for appropriations 
or limits on what activities may or should be funded through 
the appropriations process.
    Jurisdiction over all of these various aspects of 
authorizations is frequently shared by more than one committee. 
As substantive law, furthermore, authorizations are generally 
permanent unless otherwise specified, but there are no 
underlying requirements concerning their duration. This is 
further complicated when authority for an agency's activities 
is permanent but the authorization for appropriations action is 
limited to specific fiscal years. All of these variations can 
have an impact that is felt in the appropriations process and, 
more importantly, in the oversight of funding of various 
agencies and their activities.
    Appropriations, in contrast, specifically refers only to 
legislation which provides budget authority, that is, authority 
for Government agencies or programs to obligate funds. 
Appropriations are typically provided for a single fiscal year, 
although appropriated funds can be specified as being available 
for a multiyear period or even until they're spent. While there 
is no constitutional requirement that an appropriation follow 
an authorization, historically that has been the case.
    Authorizations have been separated from appropriations by 
congressional rules and practices reaching back to the colonial 
era. The distinction between what we today term authorizations 
and appropriations appears to have been understood in practice 
long before it was formally recognized in the rules.
    This distinction is reflected in the practice of early 
Congresses to refer appropriations legislation as supply bills 
whose purpose was simply to supply funds for Government 
operations already defined in law. Combining funding with 
policy-oriented legislation, it was feared, would delay the 
provision of funds or lead to the enactment of matters that 
might not otherwise become law. Indeed, it was the failure of 
the fortifications appropriations bill to be enacted in 1835 
due to controversy over a legislative provision in the bill 
that apparently was the trigger that inspired the next Congress 
to take action, and the House adopted a rule in 1837 which 
emphasized the two-step nature of the process through explicit 
language for the very first time. The Senate adopted a similar 
rule in 1850.
    In the 19th century, Congress occasionally recast the 
procedural divisions between legislation and funding questions 
but never changed the fundamental distinctions between the two. 
Throughout the 19th century, the concept of what would today be 
called authorizations continued to mean primarily permanent 
legislation involving general questions of the authority and 
activities of agencies while the appropriations legislation of 
the era was typically quite precise, including provisions 
detailing such things as the number and positions of Federal 
employees and their specific salaries or even how much to be 
spent for office supplies.
    One salient change in the late 19th century, one of 
particular interest with respect to the recommendations by the 
9/11 Commission, was the idea of jurisdiction over 
appropriations being dispersed among various committees. 
Beginning in 1880, the House Commerce Committee and the House 
Agriculture Committee were given jurisdiction over bills 
providing funding for rivers and harbors and for agriculture 
respectively.
    This was expanded to include additional House committees in 
1885, and the Senate effected a similar dispersal of 
jurisdiction in 1899.
    House and Senate rules, however, continued to preserve the 
formal distinction between legislation and appropriations. 
Despite having jurisdiction over both types of measures, 
legislative committees do not seem to have made any major 
changes in the form of measures they reported. It's important 
to note that even after they gained appropriations 
jurisdiction, they did not attempt to merge it with their 
legislative jurisdiction and continued to address broad policy 
and organizational questions separate from the details of 
funding agency activities. This system lasted until the 1920s, 
when appropriations jurisdiction was reconsolidated and 
reorganized in the way that we are familiar with today.
    In modern practice, legislative committees have attempted 
to play a more direct role in the oversight of Federal agencies 
and in the process revamp the concept of how authorizing 
legislation should be constructed. Committees have frequently 
taken an approach with authorizing legislation that now means 
both a periodic and a more detailed review of agency 
organization and activities. The refocusing of authorizing 
legislation on programmatic details, enumerating how funds 
ought to be spent, sometimes leads to the criticism that they 
seem to be duplicative of appropriations and leads to conflict 
and tension between authorizers and appropriators.
    Unlike appropriations, however, authorizations are not 
always made in the form of a single annual measure. Although 
the more detailed modern approach is widespread, authorizing 
committees as a whole have not adopted a uniform approach to 
their legislation. Various authorizing committees can frame 
their legislation in terms of administrative divisions, whether 
that means a single department or individual agencies, in terms 
of reauthorizing single specific pieces of legislation or in 
terms of broad topical issues. The result is that 
authorizations relating to any one department and the programs 
it administers can be a complex web of varying specificity and 
duration, often falling within the jurisdiction of multiple 
committees.
    At the same time, the appropriations committees have also 
changed the focus of their legislation and have generally moved 
away from the level of detail that was once common. In modern 
practice, appropriations legislation often provides funding for 
specific agencies or programs in only one or a handful in lump 
sum paragraphs. The few details in the legislative language are 
typically supplemented by other nonstatutory guidelines such as 
report language.
    Although the evolution of authorizations and appropriations 
has sometimes brought them into conflict, nevertheless they 
remain conceptually distinct. Authorizing committees and their 
legislation remains the primary venue for assessing whether a 
program constitutes a good idea, while appropriations remains 
the primary venue for deciding among competing demands for 
Federal resources and for assessing questions of how well 
Federal funds are spent.
    The historical record does not give us an answer as to 
whether joining authorization and appropriations would improve 
oversight, but it shows no barrier to change. It tells us that 
Congress has experimented in the past with their relationship 
and in the past found various ways to meet their changing 
needs.
    I want to thank you for your attention, and I welcome your 
questions.
    [The prepared statement of Mr. Saturno follows:]

 Statement of James V. Saturno, Congressional Research Service, before 
        the Senate Committee on Intelligence, November 13, 2007

    The Separation of Authorizations and Appropriations: A 
Review of the Historical Record
    Mr. Chairman and members of the Committee, thank you for 
your invitation to appear today to offer testimony regarding 
committee jurisdiction and responsibilities related to the 
separation of authorizations and appropriations. I am James V. 
Saturno, a Specialist on the Congress and Legislative Process 
with the Congressional Research Service of the Library of 
Congress.

    Authorizations and Appropriations Defined. The U.S. 
Constitution does not establish a specific budget process. The 
power of the purse is assigned to Congress in Article I, 
Section 9 which states that ``No Money shall be drawn from the 
Treasury, but in Consequence of Appropriations made by Law.'' 
How this authority is put into practice, however, has naturally 
been the subject of periodic congressional debate. 
Historically, Congress has implemented this power through a 
two-step process: first establishing agencies and programs, and 
then funding them in separate legislation. This separation is a 
construct of congressional rules and practices, and is neither 
mandated nor suggested in the Constitution. Instead, it has 
been developed and formalized over time pursuant to the 
constitutional authority in Article L Section 5, for each 
chamber to ``determine the Rules of its Proceedings.'' This 
power permits Congress to enforce, modify, waive, repeal, or 
ignore its rules as it sees fit. The result has been an 
evolving relationship.
    Legislation that establishes, continues, or modifies a 
government entity (such as a department or agency), activity, 
or program is termed an authorization. While authorizations 
form an essential part of the Federal budgeting process, by 
themselves they do not permit funds to be obligated, although 
they are typically enacted with the idea that subsequent 
legislation will provide funds.
    Instead, they give direction, both to congressional 
appropriators and to the agency. Some agencies or programs may 
be affected by more than one authorizing statute. One law may 
set up an agency and establish its underlying mission, while 
another may establish a specific program to be administered by 
the agency, another may provide specific guidelines for agency 
organization, and yet another may provide explicit 
authorization for appropriations or limits on what activities 
may be funded through the appropriations process.
    The web of authorizing statutes can be complicated because 
there are no underlying requirements concerning their duration 
or specificity. As substantive law, authorizations are 
generally permanent unless otherwise specified, but they can 
have any duration. This can be further complicated when 
authority for an agency's activities are permanent, and the 
authorization for appropriations actions is limited to specific 
fiscal years. For example, authorization of appropriations for 
defense and intelligence activities have typically been on an 
annual cycle, while those for other agencies or programs are 
often on two- to 5-year cycles. Authorizations also may be 
differentiated as definite or indefinite. That is, they may 
authorize specific amounts for specific activities, or they may 
provide that ``such sums as are necessary'' are authorized. 
Both the duration and specificity of limitations can have an 
impact on the appropriations process.
    Appropriations, in contrast, specifically refers to 
legislation which provides budget authority, that is, authority 
for government agencies or programs to obligate funds. 
Appropriations are typically provided for a single fiscal year, 
although the availability of appropriated funds can be 
specified as multiyear or ``no year'' (i.e., to remain 
available until spent without regard to year). Although there 
is no constitutional requirement that an appropriation follow 
an authorization, historically that has been the case.

    Longstanding Tradition. Authorizations have been separated 
from appropriations by congressional rules and practices 
reaching back to the colonial era. The distinction between what 
are today termed authorization and appropriations appears to 
have been understood and practiced long before it was formally 
recognized in the rules, being derived from earlier British and 
colonial practices.
    The distinction between authorization and appropriations 
was reflected in the practice of early Congresses to designate 
appropriations legislation as ``supply bills,'' whose purpose 
was simply to supply funds for government operations already 
defined in law. The inclusion of new legislation, it was 
feared, might delay the provision of funds, or lead to the 
enactment of matters that might not otherwise become law. The 
idea of authorizing appropriations was understood to be 
implicit in legislation defining or prescribing duties or 
activities of an agency, rather than explicit as it is in 
modern practice.
    By the 1820's and 1830's, the inclusion of legislative 
``riders'' in appropriations bills had become frequent enough 
that some Members began to fear that they could no longer rely 
on unwritten understandings to keep appropriations separate 
from general legislation, and thus prevent spending legislation 
from being subject to prolonged consideration as a result. The 
failure of the fortifications appropriations bill to be enacted 
in the 24`s Congress, due to a legislative provision, 
apparently inspired the next Congress to take action. Language 
was added to the Rules of the House in the 25th Congress 
(September 14, 1837) which emphasized the two-step nature of 
the process by providing:

    No appropriation shall be reported in such general 
appropriation bills, or be in order as an amendment thereto, 
for any expenditure not previously authorized by law.\l\
---------------------------------------------------------------------------
    \1\ As adopted in the 25th Congress. Congressional Globe, 25th 
Cong., 2nd sess., Mar. 13, 1838, p. 235.

    Although the rule did not explicitly prohibit language 
changing existing law until 1876, as early as 1838, the House 
established by precedent that legislative language was not in 
order in appropriations bills.\2\ The Senate adopted a similar 
rule in 1850, when it prohibited amendments proposing 
additional appropriations unless they were for the purpose of 
carrying out the provisions of an existing law.\3\
---------------------------------------------------------------------------
    \2\ As described in Asher C. Hinds, Precedents of the House of 
Representatives of the United States, including references to the 
Constitution, the laws and decisions of the U.S. Senate, vol. IV, '3578 
(Washington: GPO, 1907).
    \3\ Congressional Globe, 31st Cong., 2nd sess., Dec. 19, 1850, p. 
94.

    The Late 19th Century. The history of Congress in the 19th 
century shows that it has sometimes recast the procedural 
division between legislation and funding questions, without 
revisiting the fundamental issue of their distinctiveness. 
Throughout the 19th century, the concept of what would today be 
called authorizations continued to mean primarily permanent 
legislation, involving general questions of the authority and 
activities of agencies, while the appropriations legislation of 
the era was generally precise, even including provisions 
detailing such things as the number and positions of post 
office clerks at each specific rate of pay.
    In 1876, the House's rule separating legislation and 
appropriations was amended by what is know as the Holman Rule 
after one of its chief advocates, Representative William Holman 
of Indiana. This new provision allowed for appropriations bills 
to include changes in existing law if it were germane to the 
subject matter of the bill and retrenched expenditures. At 
least one scholar has suggested that initial enthusiasm for the 
new rule stemmed from its use as a device to allow the House to 
gain leverage against the Senate and President for repeal of 
several Reconstruction-era laws, including changes in jury 
qualifications and Federal election supervisors for the South, 
as well as a reorganization of the Army.\4\
---------------------------------------------------------------------------
    \4\ Stewart, Charles H., Budget Reform Politics: The Design of the 
Appropriations Process in the House of Representatives, 1865-1921, (New 
York: Cambridge Univ. Press, 1989), p. 89.
---------------------------------------------------------------------------
    A second major change in the relationship between 
authorizations and appropriations in the late 19th century was 
the dispersal of appropriations jurisdiction among several 
legislative committees.
    The expansion of the workload of the Committee on Ways and 
Means during and after the Civil War (especially due to 
banking, currency, and debt questions) led to the 1865 creation 
of two new committees in the House (Banking and Currency, and 
Appropriations) and a division of the workload. The 
jurisdiction of the new Appropriations Committee was defined as 
the ``appropriation of the revenue for the support of the 
Government.'' This jurisdiction, however, was extensive, but 
not all-inclusive, and the Committee had to deal with its 
erosion at an early stage. Sometime after the creation of the 
Appropriations Committee, the Commerce Committee was able to 
establish a unique joint jurisdiction over the rivers and 
harbors bill, reporting the bill which would then be referred 
to the Appropriations Committee before it could be considered 
on the House floor. Beginning in 1878, however, the Commerce 
Committee began to use suspension of the rules as a method of 
circumventing the jurisdiction of the Appropriations Committee. 
This challenge to Appropriations jurisdiction became accepted 
practice, and was codified in the House rule revision of 1880, 
which gave the Commerce Committee ``. . . the same privileges 
in reporting bills making appropriations for the improvement of 
rivers and harbors as is accorded to the Committee on 
Appropriations in reporting general appropriations bills.''
    The rule revision of 1880 also extended the power to report 
appropriations to the Agriculture Committee (for the Department 
of Agriculture). The jurisdiction of the House Appropriations 
Committee was further eroded when the rule revision of 1885 
took away its control over the Military Academy, Army, Navy, 
Post Office, consular and diplomatic, and Indian appropriation 
bills, and distributed these bills to various authorizing 
committees. The Senate likewise created a separate 
Appropriations Committee in 1867, and, in January of 1899, 
effected a similar dispersal of jurisdiction.
    The distinction between legislation and appropriations was 
preserved in House and Senate rules, however, and the exercise 
of jurisdiction over both aspects of the funding process by 
these authorizing committees does not seem to have caused any 
major changes in the form of measures enacted. It is important 
to note that, even after they gained appropriations 
jurisdiction, legislative committees did not attempt to merge 
it with their legislative jurisdiction, and continued to 
address broad policy and organizational questions separate from 
the details of funding agency activities.

    Reconsolidated Appropriations. By the end of World War I, 
the idea of a more centralized budgetary process, including 
reconsolidated appropriations jurisdiction, gained prominence. 
The Bureau of the Budget, newly established under the Budget 
and Accounting Act of 1921, also recommended that 
appropriations bills be reorganized along administrative lines, 
with appropriations for salaries and expenses of the various 
departments being carried in the same bill as funding for the 
programs and activities they administered (this grouping had 
previously existed only in the Department of Agriculture 
appropriations bill). The House Appropriations Committee, with 
its newly reconsolidated jurisdiction, adopted the Bureau's 
concept and reorganized the structure of appropriations bills 
and its subcommittees so extensively that only the Agriculture 
bill remained essentially unchanged.
    Prior to this reorganization, appropriations bills tended 
to be organized along topical lines. For example, the military 
activities of the War Department were considered in 
appropriations bills reported by the Military Affairs 
Committee, the activities of the Corps of Engineers were 
considered in the Rivers and Harbors appropriations bill 
reported by the Commerce Committee, and the salaries and 
contingent expenses of the civilian administration of the 
Department was carried in the Executive, Legislative, and 
Judicial bill, which was in the jurisdiction of the 
Appropriations Committee. A similar division existed for most 
departments, and was true even for those agencies whose 
appropriations were wholly within the jurisdiction of the 
Appropriations Committee. Funding for the activities of 
agencies as disparate as the Interstate Commerce Commission, 
the Coast Guard, and the Bureau of Mines were carried in the 
Sundry Civil bill, while their salaries and expenses were 
generally funded in the Executive, Legislative, and Judicial 
bill.
    The House's reorganization created jurisdictional 
difficulties for the Senate, which attempted to retain a 
structure based on the topical organization of appropriations 
bills, as well as multiple committees sharing jurisdiction over 
appropriations bills. Confronted with the difficulty of 
considering the House's reorganized appropriations bills, the 
Senate reorganized its own appropriations jurisdiction and 
subcommittee structure in 1922.\5\
---------------------------------------------------------------------------
    \5\ S.Res. 213, 67th Congress. For its consideration see 
``Consideration of Appropriations Bills,'' Congressional Record, vol. 
62, Mar. 1-Mar 4, Mar. 6, 1922, pp. 3199-3207, 3279-3291, 3331-3344, 
3375-3392, 3400, 3418-3432.

    The Modern Congress. In modern practice, legislative 
committees have attempted to play a more direct role in the 
oversight of Federal agencies, and in the process, revamped the 
concept of how authorizations should be constructed. Committees 
have frequently taken an approach with authorizing legislation 
that now means both a periodic, and a more detailed, review of 
agency organization and activities. The refocusing of 
authorizations on programmatic details, enumerating how funds 
ought to be spent, sometimes leads to the criticism that they 
seem to be duplicative of appropriations. Unlike 
appropriations, however, authorizations are not always in the 
form of a single, annual measure. Despite their more detailed, 
modern approach, authorizing committees have not uniformly 
adopted a single approach to their legislation. Authorizing 
legislation can be framed in terms of administrative divisions, 
whether that means a whole department or individual agencies; 
they can be framed in terms of reauthorizing a single, specific 
piece of legislation; or they can be framed in terms of an 
issue or topic. The result is that the authorizations relating 
to any one department, and the programs it administers, can be 
a complex web of varying specificity and duration. One law 
might set up an agency and establish its underlying mission, 
while a second might establish a program to be administered by 
the agency, and a third might provide specific guidelines for 
agency activities, including limits on what activities may be 
funded through the appropriations process. These laws might 
also be subject to differing sunset provisions.
    At the same time, the appropriations committees have also 
changed the focus of their legislation, and have generally 
moved away from the level of detail that was once common. In 
modern practice, appropriations legislation often provides 
funding for specific agencies or programs in only one or a 
handful of lump-sum paragraphs. The few details in the 
legislative language are typically supplemented by other, non-
statutory guidelines, such as report language.
    Although the evolution of the form of authorizations and 
appropriations has sometimes brought them into conflict, 
nevertheless, they remain conceptually distinct. Authorizing 
committees and their legislation remain the primary venue for 
assessing whether a program constitutes a ``good idea,'' while 
appropriations remain the primary venue deciding amongst 
competing demands for Federal resources, and for assessing 
questions of how well Federal funds are spent.
    Thank you for your attention. I welcome your questions.

    Chairman Rockefeller. Thank you. Thank you very much. That 
was a good history lesson which has a lot to say to us.
    The experience in the last part of the 19th and early part 
of the 20th centuries, what was the experience of having 
authorization and appropriation power combined, number one? 
What were the practical consequences of that? Was there an 
overall effect on the Federal budgeting process? And why did 
the pendulum swing back to a single appropriations committee to 
the extent that it has?
    Why did that appropriations committee, in your judgment, 
other than the usual, you know, we don't do any more earmarks 
so life is getting a lot tougher--why did they become what they 
have become, which, if you're on the Commerce Committee or the 
Finance Committee or the Intelligence Committee or the 
Veterans' Committee, like I am, the Appropriations Committee is 
a real problem, is a real problem.
    Now, there are two very powerful people that lead that 
committee and so one could posit that its role has changed over 
time depending upon what the leadership is or whether the 
leadership is willing to work with the White House unbeknownst 
to the authorizing committees that are very much a part of the 
congressional pursuit. So I'm interested in your thoughts on 
that.
    Mr. Saturno. Well, the general problem as perceived by 
legislative committees in the 1800s was what they would term an 
excessive economy of the appropriators. And quite simply, they 
were looking to control the appropriations process because they 
felt that the appropriators were not providing a sufficient 
amount of funds for the programs and for the agencies that they 
had the greatest interest in. That's partly why it began, 
beginning in 1880, with the river and harbors bill and with the 
agriculture bill. Those were the things that most directly 
involved widespread funding that was dispersed throughout the 
country that----
    Chairman Rockefeller. I'm not clear as to your answer. Are 
you saying that the authorizing committees rose up in rage and 
changed the appropriators?
    Mr. Saturno. Yes. Literally, the House Commerce Committee 
in particular, on a number of occasions attempted to share or 
take jurisdiction over the bill to provide funding for river 
and harbor projects away from the appropriators. And it was 
eventually written into House rules beginning in 1880 that they 
had exclusive jurisdiction over that particular piece of 
spending legislation. Other committees saw similar 
opportunities, and the House was eventually willing to disperse 
almost half of the jurisdiction of the Appropriations Committee 
to these other legislative committees at various times in the 
1880s.
    Chairman Rockefeller. OK. Well, now, it's a little bit 
later, and the Appropriations Committee has--and I might say 
that my Vice Chairman is a very distinguished member of that 
committee and I'm very glad that he is, very glad that my 
colleague from West Virginia is. On the other hand, it's become 
weighted and they have developed their own kind of psyche that 
you can't cross the Appropriations Committee because they'll 
never forget. And there are people I could point to on the 
Appropriations Committee about which that would be absolutely 
true.
    So why is it that the Appropriations Committee is where it 
is when what it's doing, at least with respect to this hearing, 
may not be in the national interest or the national security 
interest? Why is it they were able to assemble all that power? 
You said that the committees all rose up and demanded more of 
the action, but that was then, this is now. It's not the case 
now.
    Mr. Saturno. The reverse swing of the pendulum began early 
in the 20th century based on the idea that dispersed 
appropriations was a pretty inefficient way to do budgeting, 
that it led to a lot of venue shopping by agencies that would 
sometimes come to the Appropriations Committee, sometimes go to 
other committees looking for money to fund various projects and 
activities, and that this led to an increase in spending. 
Especially after the First World War, the idea of inefficiency 
in Government institutions, particularly in legislative 
institutions, helped the idea of reform take strong hold. And 
that was the reason for the reconsolidation, so that there 
would be less of an opportunity for agencies to try and find 
the most malleable congressional committee to provide funds for 
them and would only be able to go through a single committee.
    And that's essentially the system that we still have today. 
The rationale for it is that it prevents agencies from coming 
to multiple committees to seek funding, and whether or not that 
continues to be useful, whether that's particularly useful in 
the case of intelligence funding, well, that's certainly for 
Members such as yourself to decide.
    Chairman Rockefeller. Thank you.
    Senator Bond.
    Vice Chairman Bond. Thank you very much, Mr. Chairman.
    And thanks to you, Mr. Saturno and Professor Zegart, for 
giving us some very good background.
    I was fascinated to hear that the reform was to bring all 
the power back into the Appropriations Committee. What's the 
status in other democracies around the world? How many of them 
split the authorizations and appropriations? What's the 
practice elsewhere? Can we learn anything from looking at other 
legislative bodies to guide us?
    Mr. Saturno. I don't know the extent to which most other 
legislative bodies formalize it within their rules, but almost 
all of them keep separate the question of budgetary legislation 
and, on the other hand, general legislation to affect the 
organization and activities of Government departments.
    Vice Chairman Bond. But you don't see anything in the 
Founding Fathers' system of checks and balances that would say 
that they felt it necessary to provide checks and balances 
within Congress to keep authorizing committees from having a 
say in appropriations. Is that a fair statement?
    Mr. Saturno. Yes. Their conception of authorizations at the 
time was generally that they would pass permanent legislation 
detailing the authority of different agencies. In fact, the law 
passed in 1789 creating the Department of the Treasury still in 
large part defines the basic functions and the activities of 
the Department of the Treasury. That's partly why they don't 
have, or aren't perceived to need, an annual authorization Act. 
So the conception of what's considered necessary or useful in 
terms of authorizing legislation is in large part what's 
changed over the past 200 years.
    Vice Chairman Bond. Professor Zegart, I was fascinated by 
your analysis. Obviously, you have followed what's going on in 
Congress and in intelligence very closely. You said that of 12 
major unclassified studies, none were adopted before 9/11. What 
do you think the major impediment to that was? Is it an 
analysis of the mood or problems of organizing this body? What 
do you see as the major impediments to reform?
    Dr. Zegart. Well, Senator, I think the major impediments 
are the same ones that have been problematic for all kinds of 
intelligence reform, not just congressional reform, and there 
are three. And I think Congress has an even harder time than 
than executive branch agencies. The three are, first, inertia. 
No organization changes easily on its own, whether it's IBM or 
GM or the Congress.
    The second is turf. And here, it's helpful, I think, to 
think of the decentralization of Congress, which was 
accelerated in the 1970s with congressional reforms serving 
individual interests of individual Members. So the more 
disparate power centers there are in the Congress, the better 
it is for any individual Member because the pie is divided. It 
makes perfect sense from the standpoint of the reelection 
interest of individual Members, not so helpful for national 
interest overall. And so that turf division which was 
accelerated in the 1970s has proven particularly problematic 
from the standpoint of congressional reform.
    And then the third factor is politics, and I think this 
Committee hearing today has talked a lot about how intelligence 
is different. Historical precedents are helpful, particularly 
in enlightening us that there really is no stringent 
requirement for either separating or combining authorizations 
and appropriations. But in intelligence, what strikes me as 
particularly different, as Congressman Hamilton noted, is that 
this is the only committee that really stands watch over the 
executive branch, that there aren't nonpartisan think tanks 
that have access to that information, there aren't academics 
like me who have easy access.
    Vice Chairman Bond. You're about as close as we've got to 
that.
    Dr. Zegart. You're a lot closer than I am.
    And so there's a particularly important role that 
Intelligence Committees play, and at the same time members of 
the American public are not engaged in intelligence precisely 
because it's secret. So when I teach my students in California 
and I ask them what they know about the intelligence community, 
most of them learn a lot more from what they see in Hollywood 
where I live than being able to figure out from information 
coming out of Washington. The tremendous secrecy involved in 
intelligence makes it hard from a political standpoint to get 
the American public energized about intelligence reform, as 
we've seen over the past decade.
    Vice Chairman Bond. When I was first elected Governor, my 
biggest challenge was to reorganize the executive branch of 
Missouri State government. And the turf, every senior member of 
the General Assembly had a particular agency that was his 
agency, and he didn't want anybody in the executive branch 
running that agency. And the water patrol knew they reported to 
one Senator, and that Senator would take care of them and the 
water patrol chauffeured him around every lake in the State and 
was his own private navy. And you talk about a cat fight, I was 
in it.
    But let me ask for your advice. You heard our discussion 
earlier, and we went into the issue with Congressman Roemer and 
Congressman Hamilton--very good testimony--saying we've got to 
change the process because without having any input in 
appropriations, the Intelligence Committee has been divorced 
from the appropriations process. From your experience, how do 
you see us bringing this movement to fruition so we can have 
some impact, we can have an effective oversight impact in the 
$40-plus billion of intelligence community appropriations?
    Dr. Zegart. Well, I think that's the $64,000 question.
    Vice Chairman Bond. That's why we waited to the end to ask 
you.
    [Laughter.]
    Dr. Zegart. Well, I appreciate what the Chairman, Senator 
Rockefeller has said about the 23 votes and just how difficult 
this task is. If you look at the history of intelligence 
reform, we've seen the dangers; we've known the imperative for 
organizational changes in Congress and the executive branch. 
It's very hard to get from here to there.
    I think history does suggest that there are game-changing 
junctures, and this could well be one of them. And in those 
game- changing junctures, what makes the difference is 
leadership of individual either Members of Congress or the 
President and engaging with a public to force change on a 
change-resistant system. And I'm thinking in particular of two 
moments in time. The first is 1947 when President Truman 
undertook a tremendous battle with the Department of War and 
the Department of Navy to create our current national security 
system. The New York Times back at the time reported it as a 
brass knuckle fight to the finish. It took 4 years and bitter 
wrangling, public wrangling, lots of press about it, lots of 
open hearings about it, and ultimately Truman prevailed. It 
wasn't perfect, but it was a tremendous example of a game-
changing moment and making the most of that moment.
    The second example that comes to mind is Goldwater-Nichols, 
1986, where we had a convergence of forces. Military experts 
had known for years that the services needed better 
coordination, very similar to intelligence, and yet there 
wasn't the impetus, so there wasn't the opportunity for reform. 
Well, suddenly there was a convergence of circumstances. There 
was the failed rescue effort in Iran in 1980. There was 
Grenada. There was the Marine barracks bombing in 1983. And 
there was momentum for reform in Congress, and so two Members 
of Congress pushed through that momentum to get this incredibly 
important legislation.
    So I think windows of opportunity arise every once in 
awhile, and this I think could very well be one of them, so you 
may get more than your 23 votes if we push hard enough.
    Vice Chairman Bond. Well, I thank you and I believe your 
testimony helps us move down the line. I just wish we had 60 of 
our colleagues sitting here listening to you instead of--if you 
want to play Goldwater, I'll be Truman, or you play Truman and 
I'll be Goldwater.
    And I thank you both very much because we need to change 
things and come together with our colleagues to work out a 
responsible means of assuring that our efforts with the 50 
staffers and all on this Committee are not for naught. I thank 
you.
    Chairman Rockefeller. You've got to end better than that, 
not for naught.
    Vice Chairman Bond. That they mean something.
    Chairman Rockefeller. There you go.
    Thank you both very much. Incidentally, the number you need 
to focus on is not 50 but 60 votes because all important 
matters are filibustered.
    Vice Chairman Bond. Oh, well, we can get----
    Chairman Rockefeller. It's 23 to 60 here.
    It's interesting--I mean, it really is--to listen to the 
four of you this afternoon. And you were talking about the way 
history has worked, and it's brought those revolutions. And 
working within what we do now almost makes you--you could on 
the one hand ask if we had both the authorizing and the 
appropriating power for the Intelligence Committee, would that 
be wise? Would that be a wise thing? Should there be some kind 
of a check or balance on our decisionmaking? Because we tend to 
get pretty worked up about situations around the world.
    And then the other side would be is there an interim way, 
which was also discussed this afternoon, of gradually 
persuading people or being more aggressive with our staff with 
respect to the appropriators? And they're a very tough bunch. 
They always have been, at least in the 23 years I've been here. 
And they don't yield, and they take great pride in that.
    So I mean, very important questions have been raised in 
this hearing this afternoon, and I'm very grateful to you. I 
only apologize that the Vice Chairman had such a long opening 
statement.
    [Laughter.]
    Vice Chairman Bond. Mr. Chairman, sometimes we 
appropriators think that the authorizing committees are really 
causing a great deal of trouble, so I put on my other hat and I 
say and all of the equities are not on the side of authorizers. 
Thank you.
    Dr. Zegart. Thank you.
    Chairman Rockefeller. The hearing is adjourned.
    [Whereupon, at 5:20 p.m., the Committee adjourned.]


                                  <all>

</pre></body></html>
